                                                                  AUDIT




 MANAGEMENT OF THE COASTAL
 IMPACT ASSISTANCE PROGRAM,
 STATE OF MISSISSIPPI




 This is a version of the report prepared for public release.
 Changes have been made to the internal report consistent with
 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
 Information Act (FOIA).




Report No.: ER-IN-MOA-0013-2011                                  June 2013
                OFFICE OF
                INSPECTOR GENERAL
                U.S.DEPARTMENT OF THE INTERIOR



                                                                                 JUN 2 7 2013
Memorandum

To:              Daniel M. Ashe
                 Director, U.S. Fish and Wildlife Service

From:            Mary L.  Kendal~
                 Deputy Inspector General

Subject:         Final Audit Report - Management of the Coastal Impact Assistance Program,
                 State of Mississippi
                 Report No. ER-IN-MOA-0013-2011

       This memorandum transmits the results of our audit of the Coastal Impact Assistance
Program (ClAP) grants for the State of Mississippi. Our audit found significant deficiencies i n
the management of ClAP grants by the Bureau of Ocean Energy Management, Regulation an d
Enforcement (BOEMRE) and the Mississippi Department of Marine Resources (DMR), such
as-

      •   grants approved that did not meet criteria in ClAP legislation;
      •   widespread conflicts of interest at DMR;
      •   improper land appraisals; and
      •   circumvention of sole-source procurement regulations.

        The U.S. Fish and Wildlife Service (FWS), which assumed responsibility for
administering and managing ClAP grants from BOEMRE at the beginning of fiscal year 2012,
requested that we conduct this audit. During our audit, however, we found that FWS had not
taken the necessary steps to prevent similar problems in the administration of these funds. In
fact, FWS has relaxed monitoring requirements and awarded $398 million in ClAP grants in
only 8 months. It also has not enforced previously established BOEMRE grantee requirements to
ensure the proper use of ClAP funds and has failed to conduct reliable risk assessments of ClAP
grantees.

        FWS has much more experience in grant management than BOEMRE but has failed to
implement some of the most important controls over the grant funding. Our 37 recommendations
target deficiencies that occurred under BOEMRE and seek to correct those propagated by FWS'
current policies of relaxed oversight and expedited obligation of funds. Based on FWS ' response
to the draft report, we modified our final report as appropriate. In its response, FWS concurred or
partially concurred with 32 of our 37 recommendations and is working to implement or close
these recommendations (see Appendix 4). We consider 7 recommendations unresolved, 17
resolved but not implemented, and 13 closed (see Appendix 5).




                                 Office of Inspector General I W ashington, DC
        We request that FWS reconsider and clarify, in writing, the unresolved recommendations
within 30 days. The response should provide information on actions taken or planned to address
the recommendations, as well as target dates and title(s) of the official(s) responsible for
implementation. Please address your response to:

               Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 4428
               1849 C Street, NW.
               Washington, DC 20240

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please call me at 202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
     Objective ......................................................................................................... 2
     Background ..................................................................................................... 2
Findings................................................................................................................... 5
     BOEMRE Monitoring of Grant Projects ......................................................... 5
     Administration and Monitoring Problems Persist Under FWS ....................... 6
        Monitoring Requirements ........................................................................... 6
        Hiring of State Liaisons .............................................................................. 7
     Approved CIAP Grants that Failed To Support an Authorized Use ............... 9
        Ohr-O’Keefe Museum of Art.................................................................... 10
        Old Wire Road Trail ................................................................................. 11
        Infinity Science Center ............................................................................. 12
     Potential Conflicts of Interest Regarding DMR’s Administration of CIAP . 12
        Questionable Purchase and Management of Real Property ...................... 14
        Approval of Projects Administered by a DMR Senior Official’s Wife .... 16
        Appearance of Conflicts of Interest Involving the DMR Senior Official’s
        Son ............................................................................................................ 17
        CIAP Projects Evaluated by Individuals With Apparent Conflicts of
        Interest....................................................................................................... 17
        Benefits Accruing to Commissioners of the Mississippi Gulf Coast
        National Heritage Area ............................................................................. 18
     Improper Land Appraisals Diminished CIAP’s Impact ................................ 20
        Large Disparities Between Tax Assessors’ and Grantees’ Appraisals ..... 21
        Questionable Analysis and Application of Highest and Best Use ............ 22
        Inadequate Investigation and Consideration of Sales History .................. 23
        Unsupported and Inconsistent Quantitative Adjustments to Comparable
        Sales .......................................................................................................... 23
        Reliance on the Seller’s Appraisal ............................................................ 24
     Circumvention of Sole-Source Procurement Regulations............................. 26
        Department of Marine Resources ............................................................. 28
        Harrison County ........................................................................................ 31
        Hancock County........................................................................................ 31
        Ohr-O’Keefe Museum of Art.................................................................... 32
     Unallowable, Unallocable, and Unreasonable Charges to CIAP Grants ...... 33
        Unallowable Charges for Promotional Items ............................................ 33
        Unallocable and Unreasonable Conference Registration Fees ................. 34
        Unsupported Costs Incurred by a Subgrantee ........................................... 34
     Equipment Purchased With CIAP Funds Used Improperly .......................... 35
   Mishandled Accounting and Financial Issues ............................................... 36
      Financial Management System ................................................................. 37
      Unsupported and Ineligible Payroll Expenses .......................................... 38
      Indirect Costs ............................................................................................ 40
      Program Income ........................................................................................ 40
Conclusion and Recommendations ....................................................................... 43
   Conclusion ..................................................................................................... 43
   Recommendations Summary ......................................................................... 43
Appendix 1: Scope and Methodology................................................................... 57
   Scope ............................................................................................................. 57
   Methodology ................................................................................................. 57
Appendix 2: Questioned Costs.............................................................................. 59
Appendix 3: Federal Land Appraisal Standards and Best Practices Not Met ...... 61
Appendix 4: U.S. Fish and Wildlife Service Response ........................................ 62
Appendix 5: Status of Recommendations ............................................................. 73
Results in Brief
Our audit of Coastal Impact Assistance Program (CIAP) grants for the State of
Mississippi, initiated at the request of the U.S. Fish and Wildlife Service (FWS),
found multiple deficiencies by the Bureau of Ocean Energy Management,
Regulation and Enforcement (BOEMRE) and the Mississippi Department of
Marine Resources (DMR) that led us to question almost $30 million dollars in
CIAP funds.

During our audit, we found—

    •   grants were approved that did not meet criteria in CIAP legislation;
    •   widespread conflicts of interest at DMR in the administration of CIAP and
        land purchases;
    •   improper land appraisals that diminished CIAP’s impact;
    •   circumvention of sole-source procurement regulations;
    •   improper charges to CIAP grants;
    •   improper use of equipment; and
    •   various accounting, payroll, and financial issues.

We have no assurance that FWS, which assumed responsibility for administering
and managing CIAP grants from BOEMRE at the beginning of fiscal year 2012,
has taken the necessary steps to prevent similar deficiencies in the stewardship of
these public funds.

For example, FWS has reduced monitoring requirements and awarded almost
$400 million in CIAP grants after our warnings that major fraud could occur. In
addition, FWS’ hiring practices cast doubt on the ability of CIAP staff to
independently perform their oversight duties.

Relaxed oversight coupled with accelerated grant awards undermine the
credibility of programs like CIAP and expose the Federal Government to fraud,
waste, and mismanagement. We provide 37 recommendations that we believe will
help FWS eliminate deficiencies and correct errors that occurred under
BOEMRE, as well as those propagated by FWS’ current policies of relaxed
oversight and expedited obligation of funds.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             1
Introduction
Objective
We conducted this audit to (1) determine whether Coastal Impact Assistance
Program (CIAP) grant recipients have complied with CIAP’s authorizing
legislation, Federal regulations, U.S. Department of the Interior (DOI) policies,
and grant terms and conditions; and (2) identify grant management challenges that
the U.S. Fish and Wildlife Service (FWS) should address as it assumes the
responsibility of managing CIAP from the Bureau of Ocean Energy Management,
Regulation and Enforcement (BOEMRE).

We performed this audit at the request of FWS, which acquired oversight of CIAP
in fiscal year (FY) 2012. As a result, we included steps in our audit to help focus
their attention on specific grant management challenges (see Appendix 1). We
plan to issue additional reports on each State receiving CIAP funds.

Background
The Energy Policy Act of 2005 (Act) created CIAP, codified at 43 U.S.C. §
1356a. CIAP provides grant funds derived from Federal offshore lease revenues
to oil-producing States for conservation, protection, or restoration of coastal areas,
wildlife, and natural resources. The Act authorized the Secretary to disburse $250
million in each of FYs 2007, 2008, 2009, and 2010 to eligible CIAP grant
recipients in the coastal zone counties, parishes, or boroughs of Alabama, Alaska,
California, Louisiana, Mississippi, and Texas.

The Secretary delegated oversight of these funds to the Minerals Management
Service (MMS), which bore both the initial responsibility of approving State plans
and the continuing responsibility of reviewing, approving, and monitoring grants.
In June 2010, MMS reorganized into BOEMRE. As of October 1, 2011,
responsibility for managing the ongoing grants and awarding the balance of the
funds was transferred to FWS.

In December 2011, at the Office of Inspector General’s (OIG’s) request, DOI’s
Office of the Solicitor determined that the Act established a permanent
appropriation, allowing disbursement of funds until they are exhausted. At the
time, over $500 million remained unobligated.

The Act required grant recipients to use all funds for at least one of five
authorized uses (AUs):

    •   Projects and activities for the conservation, protection, or restoration of
        coastal areas, including wetland (AU1).
    •   Mitigation of damage to fish, wildlife, or natural resources (AU2).

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             2
    •     Planning assistance and the administrative costs of complying with CIAP
          requirements (AU3).
    •     Implementation of a Federally approved marine, coastal, or
          comprehensive conservation plan (AU4).
    •     Mitigation of the impact of Outer Continental Shelf activities through
          funding of onshore infrastructure projects and public service needs (AU5).

The Act allocated CIAP funds to each State based on the ratio of Outer
Continental Shelf revenues generated relative to all eligible States. Allocations for
FYs 2007 and 2008 were based on revenues received for FY 2006, and allocations
for FYs 2009 and 2010 were based on revenues received for FY 2008 (see Figure
1).

 Fiscal
           Alabama         Alaska      California     Louisiana     Mississippi      Texas
 Year
 2007      $25,551,607    $2,425,000    $7,444,442   $127,547,899    $30,939,851    $48,591,202

 2008       25,551,607     2,425,000     7,444,442    127,547,899     30,939,851     48,591,202

 2009       19,728,257    37,471,876     4,923,125    120,911,589     23,819,815     35,645,337

 2010       19,524,845    37,085,568     4,872,364    119,663,561     23,574,218     35,279,444

 Total     $90,356,316   $79,407,444   $24,684,373   $495,670,948   $109,273,735   $168,107,185


Figure 1. CIAP allocations by State for FY 2007 through FY 2010.

The Act further divided these amounts among the State governments and their
counties, parishes, or boroughs. Each State government was apportioned 65
percent of the State’s overall CIAP allocation. The remaining 35 percent was
divided among the State’s eligible counties, parishes, or boroughs based on
several factors, including population, miles of coastline, and proximity to leased
tracts.

To receive CIAP funds, the Governor of each eligible State had to submit for
BOEMRE’s approval a coastal impact assistance plan, detailing how CIAP funds
would be spent. Each Governor was required to solicit local input and provide for
public participation in the development of the State plan. BOEMRE reviewed
each State plan for consistency with the authorized uses and required content,
including certification by the Governor that ample opportunity for public input
occurred. Upon approval, eligible recipients could apply for CIAP funding.

The State of Mississippi had four eligible CIAP recipients: the Department of
Marine Resources (DMR) (designated by the Governor), and Hancock, Harrison,
and Jackson Counties. DMR manages the State government’s portion of CIAP


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             3
funds, while the boards of supervisors of Hancock, Harrison, and Jackson
Counties manage funds allotted to each county (see Figure 2).

 Fiscal                      Hancock         Harrison           Jackson
              DMR                                                                 Total
 Year                        County           County            County
 2007       $20,110,903      $2,132,997       $4,273,309        $4,422,642     $30,939,851
 2008        20,110,903       2,132,997        4,273,309          4,422,642     30,939,851
 2009        15,482,880       1,650,169        3,289,580          3,397,186     23,819,815
 2010        15,323,242       1,633,158        3,255,662          3,362,156     23,574,218
 Total      $71,027,928      $7,549,321      $15,091,860       $15,604,626    $109,273,735

Figure 2. CIAP funds allocated to Mississippi recipients for FY 2007 through FY 2010.

According to a State CIAP official, a DMR senior official made the final decision
on all State projects and subgrants, and each of the three counties’ board of
supervisors made the final decision on its county’s projects and subgrants. Top
priority projects were classified as “Tier 1,” and backup projects were labeled
“Tier 2”; the State plan was then forwarded to BOEMRE for approval.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             4
Findings
The State of Mississippi’s DMR and Hancock, Harrison, and Jackson Counties
were awarded 100 CIAP grants from DOI totaling $99.8 million from FY 2009
through FY 2012. We found that both BOEMRE and grant recipients managed
these funds poorly, resulting in improper actions and potential waste of Federal
funding.

BOEMRE officials conducted assessments of grantees prior to awarding grants to
determine a grantee’s level of risk. BOEMRE officials did not, however, monitor
grant recipients by conducting follow-up site visits and only reviewed
performance and financial reports for red flags or overall compliance.
Furthermore, BOEMRE officials awarded grants that did not meet the
requirements of CIAP’s authorizing legislation.

These conditions allowed grant recipients to operate in an environment rife with
conflicts of interest, with no assurance that many of the grants issued in
Mississippi were used for intended purposes or benefitted the general public. In
fact, of the almost $39 million in our sample representing 57 grants, we question
approximately $30 million in CIAP-ineligible and unsupported costs and funds to
be put to better use (see Appendix 2).

We are concerned that similar problems will continue under FWS’ administration
of CIAP. FWS did not conduct grantee risk assessments, even though it had not
previously dealt with most of the grant recipients. Instead, FWS relied on those
conducted by BOEMRE, even after being informed that the BOEMRE
assessments may have been inadequate. In addition, FWS’ hiring practices called
into question the CIAP liaison’s ability to independently perform monitoring
duties of the grantees. We briefed FWS officials on our findings in March 2012,
just a few weeks after FWS began awarding grants, yet FWS issued 63 grants and
grant modifications worth $51.6 million to Mississippi from February through
September without ensuring that additional safeguards were in place. Ignoring
these deficiencies exposes FWS and the Federal Government to fraud, waste, and
mismanagement.

BOEMRE Monitoring of Grant Projects
BOEMRE officials conducted the majority of their grant risk mitigation prior to
awarding grants. They spent a large amount of time and effort reviewing both the
State plans and individual grants with the intention that such intense scrutiny
before awarding any money would prevent future waste. While we commend
upfront review of plans and grants, officials must also conduct site visits to ensure
the proper use of funds. We were informed that BOEMRE staff conducted no site
visits during 5 years of CIAP administration. In addition, although major
emphasis was placed on the preaward review of grants, we found that BOEMRE

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             5
officials did not always adequately review grant reports to assist in ensuring that
funds were being spent properly.
Among the key monitoring tools available to BOEMRE were the required
periodic performance and financial reports submitted by the grantees. Despite
these tools, grantees told us that they rarely received substantive feedback on any
of the reports submitted. In a review of DMR files, we found that nearly 28
percent of the required financial reports were either submitted late or were absent.

During a review of performance reports, we found one instance where a grantee
unilaterally changed the scope of a grant in a performance report for the Heritage
Resources of the Mississippi Gulf Coast, resulting in $293,748 that may not have
supported the original purpose of the grant. Grant officials, however, must
preapprove any scope changes. BOEMRE personnel should have identified the
change in scope as a clear violation of the grant agreement, but it went unnoticed.

In the absence of site visits, which could detect and prevent future problems,
ensuring timely submission and careful review of reports was particularly
important. With the exception of the preaward risk assessments, these reports
served as BOEMRE’s primary monitoring tool. As a result, grantees could have
changed grant scopes, used funds for unauthorized purposes, or failed to stay on
schedule or to meet grant objectives without BOEMRE’s knowledge. We believe
that this approach, in particular the complete lack of site visits conducted by
BOEMRE personnel, led to many of our audit findings.

 Recommendations

 We recommend that FWS:

     1. Design and implement monitoring procedures to ensure that grantees
        submit timely financial and performance reports;

     2. Review financial and performance reports and resolve any identified
        issues with grantees; and

     3. Conduct and document regular site visits to ensure compliance with
        grant objectives.



Administration and Monitoring Problems Persist
Under FWS
Monitoring Requirements
We found that rather than enforcing existing grantee requirements to ensure the
safeguarding of CIAP funds, FWS relied on weak risk assessments that were


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             6
previously performed by BOEMRE and relaxed previously established BOEMRE
monitoring requirements. Therefore, FWS has not independently assessed the risk
posed by any grantees under CIAP, even though FWS officials have no prior
experience with most of the CIAP recipients. One FWS official remarked that
FWS has no reason to believe that any one of the grantees is more of a risk than
another but noted that FWS has not developed a tool to assess grantee risk for
CIAP recipients. FWS officials also claimed that they did not need to conduct risk
assessments because BOEMRE had already done so. We found, however, that
many of those assessments were weak, primarily because DMR did not respond to
questions regarding conflict-of-interest policies, which placed CIAP funds at risk.
DMR also stated it had procurement policies in place to promote competition, but
it was still inappropriately awarding sole-source contracts. Therefore, FWS
should not have solely relied on the BOEMRE risk assessments.

In addition, FWS officials waived two important compliance requirements that
should have been considered only after independently determining grantee risk.
Officials waived the requirement to submit financial and performance reports
more frequently than annually. While the prior performance of many grantees
warrants this waiver, conducting risk assessments would have indicated that some
of the CIAP-eligible entities in Mississippi required closer monitoring and should
have been required to submit these reports more often.

Officials also waived the “10 percent rule,” which requires grantees to obtain
prior approval before transferring funds between budget categories of certain
grants if the transfer is expected to exceed 10 percent of the grant’s total approved
budget. This rule helps to ensure that grantees do not inflate budgets and spend
excess funds on unallowable costs.

Conducting risk assessments can help awarding agencies identify grantees or
grant activities that require additional monitoring to ensure accountability for
Federal funds. Risk assessments also help ensure that limited monitoring
resources are focused on grantees requiring the most oversight.

Without conducting risk assessments and adjusting compliance requirements
accordingly, FWS cannot effectively monitor grant projects to prevent fraud,
waste, and mismanagement. These issues could be exacerbated if FWS does not
assess grantee risk and institute appropriate monitoring mechanisms.

Hiring of State Liaisons
In an attempt to better oversee the use of funds in CIAP States, FWS hired five
liaisons to help CIAP recipients complete grant applications, fulfill reporting
requirements, and monitor the use of funds. These Federal liaison positions are
located in Biloxi, MS; Spanish Fort, AL; Baton Rouge, LA; Austin, TX; and
Sacramento, CA. FWS, however, included State employees in the hiring process
of the FWS liaisons charged with monitoring State CIAP spending, thus calling

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             7
into question the liaisons’ ability to independently perform their duties. In
essence, FWS employed liaisons in Alabama, Louisiana, and Mississippi who
arguably owe their jobs to the very people they were hired to monitor.

FWS officials asked State employees to assist in interviewing applicants for
liaison positions and allowed State employees to provide an opinion on their
preferred candidates, a routine practice at FWS. Three State employees—two
from Mississippi and one from Alabama—and two FWS officials interviewed
applicants for the positions in Biloxi and Spanish Fort. Similarly, two Louisiana
employees and two FWS officials interviewed candidates for the Baton Rouge
position. The Mississippi participants informed us that they selected the preferred
candidate for the position in Biloxi, and FWS hired the candidate. An FWS
official involved in the hiring process supported that claim in an email to the
interview panel members, saying: “These are important positions, and if you feel
that none of the candidates meet your expectations, we can re-advertise or come
up with a Plan B.”

We are especially concerned with the relaxed monitoring requirements and the
hiring process because of the rapid pace at which FWS awarded CIAP grants—
$398 million in 8 months. This is more than three times the rate at which FWS
awarded grants under its Wildlife and Sport Fish Restoration Program, even
though FWS had no prior experience with CIAP or with most of the CIAP
grantees. A major factor affecting the speed with which FWS issued CIAP grants
was a proposed budget cut of $200 million to this program for FY 2013. In fact,
an FWS official held conference calls with all CIAP recipients urging them to
submit grant applications for any remaining CIAP funds before October 2012 to
avoid any potential cuts.

Obligating nearly $400 million in CIAP funds within approximately 8 months
may not have provided FWS enough time to perform due diligence and ensure
that CIAP grant proposals meet Federal requirements. As a result, CIAP funds are
at increased risk for fraud, waste, and mismanagement.

 Recommendations

 We recommend that FWS:

     4. Independently assess risk of CIAP grant recipients and determine how
        and when to employ various monitoring tools, such as requiring
        additional reporting or adherence to the 10 percent rule; and

     5. Modify its hiring process to eliminate the State’s influence regarding the
        hiring of the State’s CIAP liaison.



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             8
Approved CIAP Grants that Failed To Support an
Authorized Use
BOEMRE approved and provided several CIAP grants to DMR that did not
clearly support at least one of the authorized uses of CIAP funds. Mississippi’s
State plan asserted that CIAP grants would provide conservation, protection, or
restoration of coastal areas. We found, however, that seven different grant
projects should not have been approved since the projects had little or no
relevance to the preservation of the coastal areas. We therefore question almost
$5.9 million in ineligible costs and funds to be put to better use, the full amount
obligated for these seven projects at the time of our review (see Figure 3).

                                          Basis for          Ineligible      Funds To Be
     Grant
                      Grant Title        Questioning        Questioned          Put to
    Number
                                           Costs               Costs          Better Use
                       Documenting
                     and Conserving
                                          Executive
                       the Heritage
                                         Review Panel
  F12AF70001           Resources of                              $293,748          $156,252
                                          (ERP) File
                        the MS Gulf
                                           Review
                     Coast, Phases 1
                             &2
 F12AF70013           Infinity Project   OIG Site Visit           226,039           273,961
                     Old Wire Road         ERP File
 F12AF70024                                                       119,565            92,135
                       Trail Project       Review
                       Ohr-O’Keefe
                     Museum of Art
                                           ERP File
                         Mississippi
 F12AF70028                                Review/                483,650            16,350
                           Sound
                                         OIG Site Visit
                         Welcome
                           Center
                      Pass Christian
                          Harbor            ERP File
 F12AF70161                                                        89,735            26,765
                         Expansion,         Review
                       Phases 1 & 2
                        Long Beach
                          Harbor            ERP File
 F12AF70166                                                              0        1,145,000
                         Expansion,         Review
                       Phases 1 & 2
                     Joseph T. Jones
                            Park
                        Educational
                                           ERP File
                        Boardwalk,
 F12AF70181                                Review/                       0        2,940,000
                     Pedestrian Bike
                                         OIG Site Visit
                          Trail and
                        Educational
                          Pavilion

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             9
                                          Basis for          Ineligible       Funds To Be
     Grant
                       Grant Title       Questioning        Questioned           Put to
    Number
                                           Costs               Costs           Better Use
 Total                                                       $1,212,737         $4,650,463

Figure 3. Total amount obligated in grant awards that do not clearly support at least one of
the authorized uses under the Energy Policy Act of 2005.

Five of the projects were originally submitted as part of Mississippi’s State plan
under AU4—the implementation of a Federally approved marine, coastal, or
comprehensive conservation plan. BOEMRE personnel requested an opinion from
the Office of the Solicitor on what qualified as a “Federally approved marine,
coastal or comprehensive conservation management plan” since the projects
submitted for approval were all part of the Mississippi Gulf Coast National
Heritage Area plan. BOEMRE personnel had determined that this plan was 90
percent related to cultural heritage and less than 10 percent to coastal
conservation. The Office of the Solicitor provided a list of examples of what it
considered to meet the intent of the requirement and stated that, while the list was
not exhaustive, BOEMRE should employ a “functional test” to determine if a
given plan meets the intent of AU4.

BOEMRE officials subsequently rejected all seven projects since they determined
that the Mississippi Gulf Coast National Heritage Area plan did not satisfy AU4
requirements because neither the plan nor the individual projects provided any
direct benefit to the natural coastal environment. BOEMRE, however, had
broadened its interpretation of AU1 to include projects that provide an “indirect”
benefit to the natural coastal environment. Therefore, all projects that had been
rejected because they provided no direct benefit to the coastal environment were
later approved under the AU1 revision.

We question the use of CIAP grant funds for any of the projects that were
originally determined to provide no direct benefit to the coastal environment but
were later approved because of the policy change allowing “indirect” benefits. We
were especially concerned with the approval of three of the projects—the Ohr-
O’Keefe Museum of Art, the Old Wire Trail, and the Infinity Science Center.

Ohr-O’Keefe Museum of Art
The Ohr-O’Keefe Museum of Art Mississippi Sound Welcome Center, a pottery
and art museum, was awarded a subgrant for $500,000 to install six skylights and
flooring in the welcome center, construct a lecture hall for educational purposes,
and create a living laboratory using plants and vegetation outside the museum.
The skylights and flooring were projected to cost $450,000, leaving only 10
percent of the award for features that could have benefitted the environment, such
as coastal exhibits and landscaping.


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             10
During our site visit, the subgrantee informed us that the construction plan of the
lecture hall had been discarded—a fact that BOEMRE was not informed of—but
that the planting of the living laboratory would take place after construction in the
museum was completed. According to the most recent Federal Financial Report,
however, only $16,350 remains available on the grant, which means that the
amount actually intended for conservation purposes is less than 4 percent of the
total award. We do not believe that this project accomplishes CIAP goals.

Old Wire Road Trail
The Old Wire Road Trail project was awarded $211,700 to obtain rights-of-way
and construct a 6-foot-wide asphalt trail across roughly 20 miles of the Old Wire
Road, a historic telegraph line. The section of the trail funded by CIAP was
entirely within the boundaries of Stone County, MS, which is a landlocked county
not designated as an eligible recipient for CIAP grants (see Figure 4).




Figure 4. Map depicting the approximate placement of the Old Wire Trail in landlocked
Stone County, MS.

BOEMRE’s policy regarding the noncoastal upper counties, however, states that
“all CIAP projects do not need to be undertaken solely within a State’s coastal
zone, but project benefits should flow to the coastal zone.” We question whether
the benefits of an inland asphalt trail “flow to the coastal zone” or meet any of the
authorized uses of CIAP funds. The project narrative includes the placement of
interpretive signs, but these signs account for less than 2 percent of the overall
budget.

We were particularly concerned about this project because DMR had requested a
$788,300 amendment. We notified FWS in March 2012 of our concerns, but FWS
still approved the amendment in May 2012.


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             11
Infinity Science Center
The Infinity Project was awarded $500,000 to fund the construction of a
classroom at the Infinity Science Center, which is part of the National
Aeronautics and Space Administration’s (NASA) Stennis Space Center.
According to the grant agreement, this classroom would be “a state of the art
education facility that [would] provide long-term, continuous demonstration,
outreach, and education opportunities for visitors to support the mission of
educating the public on space, marine and environmental sciences.” Since this is a
general-purpose classroom in a NASA facility, we question whether the project
meets any of CIAP’s authorized uses.

 Recommendations

 We recommend that:

     6. DOI’s Assistant Secretary for Policy, Management and Budget resolve
        the ineligible questioned costs of $1,212,737 awarded by BOEMRE and
        address the $4,650,463 in funds to be put to better use;

     7. FWS review and revise CIAP guidance to ensure compliance with the
        Act; and

     8. FWS review all open CIAP grants and Mississippi’s State plan and
        conduct regular site visits of high-risk grant projects to ensure
        compliance with the CIAP requirement.


Potential Conflicts of Interest Regarding DMR’s
Administration of CIAP
DMR and county officials placed CIAP funds at risk by allowing individuals with
apparent or actual conflicts of interest to apply for, evaluate, manage, or benefit
from CIAP funding. Undisclosed conflicts of interest between a DMR CIAP
official, another DMR senior official, the Mississippi Gulf Coast National
Heritage Area, and their family and friends were at the core of 23 grants totaling
roughly $16 million. At the time of our review, over $8.8 million had already
been drawn down (see Figure 5).

                                                                                   Funds
                                                   Total         Ineligible
     Grant                                                                         To Be
                   Grantee      Subgrantee         Grant        Questioned
    Number                                                                         Put to
                                                  Amount           Costs
                                                                                 Better Use
 F12AF70001          DMR            None             $450,000        $293,748       $156,252
 F12AF70005          DMR          Lucedale            154,000         143,541         10,459
 F12AF70013          DMR          Mississippi         500,000         226,039        273,961


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             12
                                                                                    Funds
                                                    Total         Ineligible
     Grant                                                                          To Be
                   Grantee       Subgrantee         Grant        Questioned
    Number                                                                          Put to
                                                   Amount           Costs
                                                                                  Better Use
                                     State
                                  University
                                Land Trust for
                                the Mississippi
 F12AF70016           DMR                              849,838         844,366           5,472
                                 Coastal Plain
                                  (LTMCP)
 F12AF70018           DMR          LTMCP               350,000         252,438          97,562
 F12AF70024           DMR       Stone County           211,700         119,565          92,135
 F12AF70028           DMR        Ohr-O’Keefe           500,000         483,650          16,350
                                 University of
                                  Southern
 F12AF70034           DMR                              249,990          16,894         233,096
                                  Mississippi
                                    (USM)
                    Harrison
 F12AF70118                        LTMCP                18,910          13,558           5,352
                    County
                    Harrison
 F12AF70119                        LTMCP                18,960           1,729          17,231
                    County
                                  The Nature
 F12AF70128           DMR        Conservancy           100,000          12,836          87,164
                                     (TNC)
 F12AF70214           DMR           LTMCP               16,594          13,173           3,421
 F12AF70222           DMR              USM           2,250,000         746,084       1,503,916
 F12AF70228           DMR           LTMCP               26,000           3,400          22,600
 F12AF70232           DMR             None             245,000         231,659          13,341
                                  Institute for
                                     Marine
 F12AF70237           DMR                            3,366,247       1,336,189       2,030,058
                                    Mammal
                                Studies (IMMS)
 F12AF70260           DMR              USM             993,816         111,991         881,825
 F12AF70267           DMR             TNC              400,000         117,065         282,935
 F12AF70270           DMR             None           3,725,300       3,695,253          30,047
 F12AF70281           DMR          Pascagoula          552,000               0         552,000
                                 Maritime and
                                    Seafood
 F12AF70298           DMR                              300,000               0         300,000
                                    Industry
                                    Museum
 F12AF70302           DMR             IMMS             474,365               0         474,365
 M09AF15332           DMR              USM             276,000         207,200          68,800
 Total                                            $16,028,720      $8,870,378      $7,158,342

Figure 5. Ineligible questioned costs related to grants and subgrants awarded with potential
conflicts of interest.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             13
Questionable Purchase and Management of Real Property
The State of Mississippi included in its State plan a Gulf Coast land acquisitions
project totaling $10.8 million. It intended to purchase several land parcels from
residents who could express interest in selling eligible properties by filling out a
Land Acquisition Application and Ranking Criteria form found on the DMR
CIAP Web site. DMR would evaluate and rank these properties based on
established criteria and determine which properties to purchase. Structuring this
land acquisition project in the State plan as one overall acquisition project instead
of identifying the individual parcels upfront did not allow the public a chance to
comment on the properties DMR selected for purchase. This created an
environment that allowed questionable land purchases to occur, including the
purchases of the home of a State CIAP official’s parents and a yacht club and boat
storage facility.

Purchase of the Home of a State CIAP Official’s Parents
At least three parties engaged in potential conflicts of interest when DMR
purchased the Pascagoula property using a $245,000 grant: a DMR CIAP official,
the CIAP official’s parents, and another DMR senior official. DMR paid
$195,000 for the 0.95-acre parcel, which included a fully functioning, recently
renovated house located in a residential neighborhood.

According to the grant agreement, DMR acquired the Pascagoula property for
conservation, green space, and low-impact public use. We found, however, that a
DMR CIAP official’s parents owned the Pascagoula property. The CIAP official,
who is responsible for overall CIAP administration, helped to compile the State
plan and ordered the appraisals for CIAP land acquisitions. A DMR senior
official, who approves and signs all grant agreements, informed us that he knew
of the relationship between the sellers and the CIAP official prior to the
transaction but allowed the sale to proceed after the CIAP official assured him
that the property would be selected for acquisition in the same manner as all other
land purchases under CIAP. DMR, however, could not provide us with
documentation showing how the Pascagoula property was selected or how it
ranked in comparison to other properties submitted by the public for
consideration.

In addition, the sale agreement between the sellers and DMR stated: “The Sellers
warrant and represent that neither the Sellers, nor any member of [the] Sellers’
family, are related by marriage, blood within a first or second degree of kinship,
or [has a] direct business relationship to” the DMR senior official. The CIAP
official, however, has a familial relationship with the sellers (their daughter) and a
direct business relationship with the DMR senior official (his
employee). Furthermore, one of the sellers of this property—the CIAP official’s
mother—is a commissioner of the Mississippi Gulf Coast National Heritage Area.
Since the DMR senior official has oversight of and is actively involved with this
organization, he also appears to have a direct business relationship with the seller.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             14
DMR hired a contractor who reports to the CIAP official and manages all aspects
of CIAP land acquisitions. According to the contract, “[t]he Contractor certifies
that it . . . [w]ill establish safeguards to prohibit employees from using their
positions for a purpose that constitutes or presents the appearance of personal or
organizational conflict of interest, or personal gain.” Upon learning of the planned
purchase of the Pascagoula property, the contractor informed the CIAP official
that an ethics opinion on the project may be necessary to “help ensure that
everything is transparent” and to “protect [the CIAP official] and [DMR] going
forward on this purchase.”

Four months later, an attorney employed by the contractor contacted the
Mississippi Attorney General’s office, suggesting that the acquisition of the
Pascagoula property may violate CIAP grant language addressing conflicts of
interest. Specifically, the attorney warned that the contractor had a “duty to advise
DMR that this project could and most likely does fall within the last part of the
Conflict of Interest provision of Section E.7, in that it could ‘give the appearance
of being motivated by desire for private gain for themselves or others (apparent
conflict of interest), particularly those with whom they have family (emphasis
added) . . . ties.’” The Attorney General’s office concurred and quickly emailed
the DMR senior official and the CIAP official, advising that an opinion from the
State ethics commission was the most prudent course of action.

Despite being informed by the contractor of the potential impropriety and being
advised by a member of the State Attorney General’s office, we have no
indication that an ethics opinion was rendered or pursued. Just over 2 months after
being advised by the attorney to seek such an opinion, the purchase of the CIAP
official’s parent’s home was finalized.

Purchase of Yacht Club and Boat Storage Facility Owned by a DMR Senior Official’s
Friend
A DMR senior official engaged in a potential conflict of interest when DMR
purchased Harbor Landing, a yacht club and boat storage facility owned by a
friend of the senior official, for approximately $3.7 million (about $2.1 million
per acre) in CIAP funds. According to the grant agreement, DMR planned to
remove all structures and restore the waterfront area to a community green space.

DMR allowed the seller to “wind down” operations at the boat storage facility for
a year and a half after the purchase. According to the DMR senior official, he had
a “handshake” deal with the seller, allowing the seller to keep all revenue as long
as the revenues were offset by any operations and maintenance costs. The owner
was told to keep accurate records and not to earn any profit, but no one from
DMR has ever requested to see the records.

Due to the potential conflict of interest and subsequent events, we question
whether DMR ever intended to use this property for green space. The yacht club

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             15
and boat storage would need to be demolished to fulfill the stated purpose of the
purchase. Any demolition would have to be funded through non-CIAP
appropriations. Such a high-priced property that could require an extra investment
of State funds to be able to even call it green space is, at the very least, difficult to
justify.

In addition, Harbor Landing was purchased by DMR in December 2010. Just 2
months later, in February 2011, the City of Ocean Springs, MS, requested that
DMR consider selling Harbor Landing to a credible buyer to preserve the city’s
tax base and avoid congestion in the city’s harbor. The language in the deed to the
property makes it clear that property acquired with CIAP funding is obtained for
conservation purposes and is to remain preserved and in the State’s possession.
The DMR senior official, however, replied that although he did not envision being
able to move forward with the proposal, he would be willing to sell if the city paid
any resulting legal expenses.

Approval of Projects Administered by a DMR Senior Official’s Wife
A potential conflict of interest existed between a DMR senior official and his
wife, who has been employed by two different major DMR subgrantees—the
University of Southern Mississippi (USM) and the Institute for Marine Mammal
Studies (IMMS). IMMS received funding under grant F12AF70237 for
$3,366,247 and F12AF70302 for $474,365 in phase one of the grant. USM
received subawards totaling $4,125,360.

The DMR senior official’s wife worked for USM until April 2010. USM received
11 CIAP subgrants, including a grant to reconstruct the Marine Education Center
and Aquarium (MECA) destroyed by Hurricane Katrina in 2005. The DMR senior
official’s wife had administered MECA for over 15 years and was designated as
the project lead for USM in the original CIAP grant award.

On March 1, 2010, IMMS announced that the DMR senior official’s wife had
been named one of its directors and was leaving her position at USM. The next
day, DMR submitted an unusual request to switch subgrantees on the MECA
construction grant from USM to IMMS, stating that USM was “hesitant to
complete the project” because of its current economic situation. This request
meant that what would become the largest grant in the State of Mississippi, worth
nearly $7.8 million, was switched from the former employer of the senior
official’s wife to her new employer.

Due to the timing of both events, we interviewed the former director of USM’s
Gulf Coast Research Laboratory to better understand the requested subgrantee
change. He denied that USM hesitated in moving forward with the CIAP grant to
construct a new MECA once the project began. He also stated that USM gave up
the almost $7.8 million grant after splitting up grants managed by the DMR senior
official’s wife into those that were “the University’s” and those that were “hers.”

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             16
In a press release announcing the DMR senior official’s wife’s employment with
IMMS, the senior official’s wife stated that she would bring millions in grant
funding and many marine programs to IMMS. Shortly thereafter, the change in
subgrantees from USM to IMMS was approved by BOEMRE. Several months
later, IMMS received funding from another CIAP award for over $3.3 million for
a project that was initially excluded when the Mississippi CIAP plan was
assembled. This grant budgeted for several employees’ salaries, including a
portion of the DMR senior official’s wife’s salary.

The appearance of a conflict of interest, coupled with evidence that DMR
deliberately misled BOEMRE, causes us to question 100 percent of the
expenditures under these grants.

Appearance of Conflicts of Interest Involving the DMR Senior Official’s
Son
Beginning in January 2010, the DMR senior official’s son served on the board of
trustees of a nonprofit organization, the Nature Conservancy (TNC).
Approximately 1 month earlier, however, DMR submitted a grant application to
BOEMRE that requested $100,000 for a subgrant to TNC. In March 2010, shortly
after the DMR senior official’s son began serving on TNC’s board, DMR applied
for another CIAP grant that included $400,000 for a second TNC subgrant. We
noted that the DMR senior official signed both of these grant agreements, thereby
providing funds to an organization that his son helps oversee.

Furthermore, DMR considered using CIAP funds to purchase property belonging
to the senior official’s son by including the property on a list of CIAP-eligible
lands, thereby presenting the appearance of a conflict of interest. Ultimately, the
Land Trust for the Mississippi Coastal Plain (LTMCP) purchased the son’s
property using other DOI funds it received through a subgrant from DMR. Those
Federal funds, however, were not authorized for real property purchases.

CIAP Projects Evaluated by Individuals With Apparent Conflicts of
Interest
We found several other appearances of or actual conflicts of interest related to the
eligible CIAP recipients that assisted with the development of the State plan. In
one instance, two DMR employees evaluated the nearly $7.8 million proposed
USM grant that was to be overseen by the DMR senior official’s wife, even
though the DMR senior official was in their supervisory chain. In another
instance, a DMR employee reviewed projects submitted by nonprofit
organizations, including LTMCP, even though the employee served on LTMCP’s
advisory board. LTMCP submitted 12 projects to DMR for consideration, and at
least 6 of those projects were included in the State plan with LTMCP listed as the
subgrantee.



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             17
Benefits Accruing to Commissioners of the Mississippi Gulf Coast
National Heritage Area
A DMR CIAP official is also the director of the Mississippi Gulf Coast National
Heritage Area, managing it jointly with a group of commissioners. At least seven
commissioners, however, managed or potentially benefitted from CIAP subgrants.
For example—

    •   one commissioner, also a LTMCP senior official, received four CIAP
        subgrants from DMR totaling more than $1.2 million for land acquisitions,
        salaries, and related expenses;
    •   another commissioner, also a Stone County consultant, serves as the
        county’s contact for the Old Wire Road Trail grant, which according to the
        State plan will total nearly $1 million after all phases and is a project that
        does not comply with the legislatively mandated uses of CIAP funds; and
    •   another commissioner, also a senior official of the Ohr-O’Keefe Museum
        of Art, oversees the $500,000 grant the museum used to install skylights in
        its gift shop and cafeteria.

The Mississippi Gulf Coast National Heritage Area’s plan also suggests that
DMR intended to distribute CIAP funds in a manner that we consider inconsistent
with the CIAP requirements. The plan lists all of the projects involving these
seven commissioners and remarks that those projects are eligible for CIAP
funding because they reside within one of the six counties that make up the
Mississippi Gulf Coast National Heritage Area. The plan does not discuss whether
the projects meet congressional requirements to receive CIAP funding, creating
the impression that these projects could have received funding due to business ties
rather than merit.

The Code of Federal Regulations (43 C.F.R. § 12.60) requires States to expend
and account for grant funds in accordance with State laws and procedures for
expending and accounting for their own funds. Therefore, DMR must comply
with Statewide policies and procedures, such as the Mississippi Agency
Accounting Policies and Procedures Manual. The manual states that each agency
head is responsible to help “design, implement, maintain, and champion an
internal control program that encompasses all agency fiscal programs and related
activities.” DMR, however, had not implemented several controls intended to
deter and avoid conflicts of interest, including—

    •   a code of ethical conduct for all employees and a separate code of conduct
        for accounting and finance employees;
    •   policies and procedures on fraud, waste, and mismanagement that depict
        the agency’s responsibilities and enhance its employees’ abilities to
        prevent, detect, and report fraudulent or wasteful activity;



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             18
    •   policies and procedures that prevent management from overriding internal
        controls and outline how compliance will be monitored; and
    •   policies and procedures to review accounting entries for “related party”
        transactions, where one party has significant influence or control over
        another party.

Furthermore, none of the three counties could provide us with policies and
procedures for reporting fraud, waste, or mismanagement to independent
investigative entities, such as the appropriate Office of Inspector General.
Although one county has a policy on reporting fraud to county managers and
attorneys, the breadth and depth of the potential conflicts of interest we
discovered could deter employees from contacting DMR or county officials.
Employees’ awareness and use of reporting mechanisms like Federal hotlines can
be particularly useful to oversight agencies located outside the Gulf region since
conflicts of interest are generally difficult to detect from afar. Left unchecked,
these types of improprieties place Federal funds at risk; reward a close group of
family, friends, and business associates; and prevent programs from benefitting
the public.

 Recommendations

 We recommend that FWS:

     9. Resolve the $8,870,378 in ineligible questioned costs arising from
        potential conflicts of interest regarding DMR’s and Harrison and
        Hancock Counties’ administration of CIAP and address the $7,158,342
        of funds to be put to better use;

     10. Review the State’s CIAP grants to identify and rectify potential conflicts
         of interest; such action could include requiring grantee and subgrantee
         staff to report memberships on boards of directors of outside
         organizations, reviewing large contracts and other procurement
         transactions for propriety, comparing the names of individuals involved
         in grant projects with a list of DMR or county employees, and
         performing site visits and formally informing employees of ways to
         report fraud, waste, or mismanagement to independent authorities;

     11. Require DMR to provide support that it is complying with and
         implementing Chapter 30, “Internal Control,” from the Mississippi
         Agency Accounting Policies and Procedures Manual, per the C.F.R.
         requirement;

     12. Require DMR to establish safeguards to prohibit employees from using
         their positions for a purpose that constitutes or presents the

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             19
 Recommendations
      appearance of personal or organizational conflict of interest, or
      personal gain, as required by the assurance statements for Federal
      financial assistance, and periodically review compliance with the
      safeguards;

     13. Require the State to publicly announce each land parcel considered for
         purchase with CIAP funds, allow ample time for public comment, and
         report the comments to FWS prior to issuance of the grant award;

     14. Monitor real property purchased with CIAP funds to ensure that
         grantees and subgrantees do not inappropriately dispose of such
         property, with particular attention given to the Harbor Landing site and
         to acquisitions involving a potential conflict of interest; and

     15. Require DMR to account for all revenues and expenditures related to
         the Harbor Landing boat storage facility beginning with the date DMR
         took ownership of the property.


Improper Land Appraisals Diminished CIAP’s
Impact
DMR receives CIAP grants to acquire and conserve real property, but appraisals
of real property must meet the Uniform Appraisal Standards for Federal Land
Acquisitions (UASFLA). As of December 31, 2011, DMR, Harrison County, and
four of their subgrantees—the City of Lucedale, the City of Pascagoula, LTMCP,
and the Lynn Meadows Discovery Center (LMDC)—had acquired or were
attempting to acquire 16 parcels of land under grants provided by BOEMRE.

After discussing appraisal terminology, theory, and practice with a Federal
appraisal expert from the DOI Office of Valuation Services, we identified 13
UASFLA requirements that we consider to be key elements and best practices that
could affect the appraiser’s estimation of market value—

    •   arms-length transactions;
    •   tax assessors’ and grantees’ appraisal amounts;
    •   analysis and application of highest and best use;
    •   extraordinary assumptions;
    •   consideration of sales history;
    •   cost and/or income capitalization methods of appraisal;
    •   zoning differences;
    •   verification of comparable sales;
    •   sales to governments and nonprofits as comparables;

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             20
    •   quantitative adjustments to comparable sales;
    •   qualitative analysis of comparable sales;
    •   stale appraised values and comparable sales; and
    •   reliance on the seller’s appraisal.

None of the CIAP appraisals fully met these criteria, with each appraisal
containing an average of five deficiencies (see Appendix 3). Some of the most
alarming issues with inadequate appraisals and questionable land acquisitions
include extremely large disparities between tax assessors’ and grantees’
appraisals, questionable analysis of highest and best use, inadequate investigation
and consideration of sales history, unsupported and inconsistent quantitative
adjustments to comparable sales, and the reliance on the seller’s appraisal. These
issues can diminish CIAP’s overall impact on coastal communities by resulting in
overpayment for property and reducing the amount of funds available for other
projects.

Large Disparities Between Tax Assessors’ and Grantees’ Appraisals
UASFLA requires appraisal reports to state the value of the property that local
officials use for tax purposes. In 15 of 16 instances, property values determined
by CIAP appraisals varied dramatically from the values assigned by county tax
assessors. Five properties appraised at least 1,000 percent higher for CIAP
purposes than for tax assessment purposes, with the most egregious example
appraising 7,382 percent higher (see Figure 6).

                                         County Tax
                                                             CIAP            Percentage
            Land Tract                   Assessor’s
                                                            Appraisal        Difference
                                          Appraisal
 Charnley-Norwood                           $457,320          $1,300,000               184%
 Hanover Point                                183,400          1,260,000                587
 Harbor Landing                             1,320,050          4,050,000                207
 Lynn Meadows Discovery
                                                198,490        1,070,000                 439
 Center
 McNeil Property                                 10,650          130,000               1,121
 Moran Site                                      33,132          380,500               1,048
 Moss Point                                       3,300           32,500                 885
 Old Fort Bayou                                  70,680        1,250,000               1,669
 Pascagoula                                     175,790          195,000                  11
 Pass Christian Beach Front
                                                595,125        5,250,000                 782
 Park
 Point Park                                     200,470          465,000                 132
 Potoman LLC                                     38,085          170,000                 346
 Reynolds (Front Beach Drive)                   202,840          835,000                 312
 Reynolds (Rod and Reel Road)                     8,970           25,700                 187


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             21
                                         County Tax
                                                             CIAP            Percentage
            Land Tract                   Assessor’s
                                                            Appraisal        Difference
                                          Appraisal
 Swetman-Meeboer                                4,745            355,000               7,382
 Wolf River                                    11,977            360,000               2,906

Figure 6. Disparities between appraisals conducted for CIAP grants and county tax
assessors’ appraisals.

The appraisal expert from the Office of Valuation Services informed us that tax
assessors’ valuations can vary widely from appraisals conducted under UASFLA,
depending on the appraisal method required in each tax assessor’s jurisdiction. He
noted, however, that significant disparities generally warrant an explanation in the
appraisal reports. Only two appraisals, for LTMCP’s planned acquisition of the
Potoman LLC and Swetman-Meeboer properties, attempted to address these
differences but did not do so convincingly. The appraisals justified the disparities
by showing that other LTMCP acquisitions also cost considerably more than the
values determined by the tax assessor. This method, however, does not rely on
independent data (i.e., sales in which LTMCP was not involved) to explain the
significant disparities.

Questionable Analysis and Application of Highest and Best Use
One of the first steps in the appraisal process is to determine the highest and best
use (HBU) of the property being appraised. HBU represents the most profitable
use for which the property is adaptable and likely to be needed in the reasonably
near future. After determining HBU, appraisers use comparable properties with
the same HBU to estimate the value of the subject property.

Although UASFLA considers the determination of HBU as one of the most
important elements of the entire appraisal process, CIAP appraisals contained
numerous instances of questionable HBU analysis and application:

    •   Eight CIAP appraisals either (1) did not report HBUs for all comparable
        sales or (2) used comparable sales with HBUs different from the subject
        property. According to UASFLA, all comparable sales fundamentally
        have the same economic HBU as the property under appraisal.
        Comparable sales that do not meet this standard are not truly comparable
        to the subject property and should not be considered in UASFLA
        appraisals (see Appendix 3).
    •   Five CIAP appraisals list multiple HBUs for the subject property or the
        comparable sales. For example, the Wolf River appraisal presents four
        possibilities for HBU, even though it does not consider the property to be
        a candidate for mixed use. Similarly, the Moss Point appraisal lists
        multiple HBUs for three of the four comparable sales used in that report.
        According to UASFLA, “each potential use must be analyzed in terms of

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             22
        its physical possibility, legal permissibility, financial feasibility, and its
        degree of profitability. That use which meets the first three tests and is the
        most profitable use (i.e., results in the highest value) is the property’s
        highest and best use” (see Appendix 3).
    •   Four CIAP appraisals assert that assemblage—the practice of combining
        two or more land parcels under a single ownership or use—represents
        HBU of the subject property or the comparable sales. According to
        UASFLA, however, “the appraiser’s estimate of highest and best use must
        be an economic use [original emphasis].” A June 22, 2005 article entitled
        “Disassembling Assemblage,” published by the Appraisal Institute—a
        global association of nearly 23,000 professional real estate appraisers—
        echoes this sentiment. The article states: “Unfortunately for most property
        owners, the actions of the adjoining property owners cannot be dictated. If
        they could, the highest and best use of every property would be for the
        adjacent property owner to purchase it [for assemblage purposes]. An
        absurd extension? Many assemblage conclusions are just as absurd” (see
        Appendix 3).

Inadequate Investigation and Consideration of Sales History
UASFLA states that “[p]rior sales of the same property, reasonably recent and not
forced, are extremely probative evidence of market value.” The standards also
require appraisers to report all sales of the subject property within the past 10
years. If no sale occurred within that timeframe, appraisals must indicate the last
sale of the property, irrespective of date, since Federal courts have considered
sales up to 14 years old as relevant in determining market value. Prior sales
history, however, is not fully reported in 11 of the 16 CIAP appraisals (see
Appendix 3). For example, the April 2010 appraisal of Harbor Landing notes that
the property had been sold in January 2004 for $675,000. Even though this sale
occurred only 6 years prior to the CIAP appraisal, the appraiser discounted it in
his analysis “[d]ue to its occurrence several years in the past.” This standard is
particularly relevant given that the appraiser’s valuation of Harbor Landing totals
$4,050,000, an appreciation of 600 percent over 6 years.

Unsupported and Inconsistent Quantitative Adjustments to
Comparable Sales
Comparable sales inevitably differ from the subject property in a number of ways.
For example, a comparable sale could have an ocean view, while the subject
property does not. Such features increase or decrease the value of comparable
sales, and unless appraisers adjust for these differences, they could overstate or
understate the value of the subject property. According to UASFLA: “The
preferred method of adjusting comparable sales is through the use of quantitative
[specific dollar or percentage] adjustments whenever adequate market data exists
to support them.” The Federal appraisal expert we consulted explained that
quantitative adjustments should be supported by verifiable data.


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             23
Of the 16 appraisals we reviewed, 11 do not adequately support quantitative
adjustments of comparable sales (see Appendix 3) For instance, in the report for
the one of the properties, the appraiser adjusted the price of three comparable
sales by 15 percent due to size differences. The appraiser, however, did not
calculate the specific amount of this adjustment using market data; he appeared to
estimate the 15 percent figure based only on his experience.

The appraiser also inconsistently adjusted comparable sales without adequate
explanation. The comparable sales in the report were adjusted due to differences
in acreage—the largest comparable (40 acres) is 4 times larger than the smallest
(9.7 acres)—but approximately 8 months later, the same appraiser valuated
another property without quantitatively adjusting any comparable sales for size. In
this case, the largest comparable sale (150.2 acres) was 376 times larger than the
smallest (0.4 acres).

Reliance on the Seller’s Appraisal
DMR based its purchase of the Hanover Point and the Pass Christian Beach Front
Park properties on UASFLA appraisals completed for and addressed to the sellers
without procuring its own. We have no evidence that DMR addressed this issue to
ensure the impartiality and thoroughness of these appraisals.

These issues arose due to ineffective management by virtually all parties involved
in the appraisal process—Federal officials, grantees, and appraisers. First,
BOEMRE grant language did not require grantees and subgrantees to obtain
independent reviews of their appraisals from a qualified appraiser under certain
conditions. Instead, BOEMRE officials examined the appraisals, although they
had little knowledge of and no training on UASFLA. One BOEMRE grant
specialist informed us that if she could “follow the math” used in an appraisal, she
considered it adequate.

Second, we have no assurance that DMR officials engaged the most competent,
qualified, and experienced individuals to work on land acquisitions because they
did not procure key services competitively. For example, the hand-selected
environmental and real estate consulting firm charged with coordinating all
aspects of CIAP land acquisitions, including work performed by third-party
appraisers, was also required to gather and submit all deliverables, including
appraisal reports, to DMR. The contractor, however, only performed a “cursory
documentation and compliance check of the appraisal reports” in spite of (1) its
implicit responsibility to submit reasonably accurate deliverables, and (2) DMR’s
professed need for “technical expertise in . . . appraisal and appraisal review,”
which was touted as a reason to hire the contractor under sole-source procurement
procedures. Furthermore, the resume for the contractor’s representative working
on CIAP projects does not indicate any prior experience with UASFLA
appraisals.


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             24
UASFLA quotes the U.S. Supreme Court’s decision in Searl v. School District,
Lake County, to highlight the importance of fully supported appraisals: “It is the
duty of the state, in the conduct of the inquest by which the compensation is
ascertained, to see that it is just, not merely to the individual whose property is
taken, but to the public which is to pay for it.” 1 Since the CIAP appraisals fall
short of meeting required standards, the public has no assurance that it paid a fair
price for land acquired by DMR and its subgrantees. As a result, we question
$12,639,045 in ineligible costs, which represents all expenses incurred under
CIAP grants for land acquisitions through December 2011 (see Figure 7).

                                                                                     Funds To
                                                                       Ineligible
        Grant              Grantee/         Land         Grant                       Be Put to
                                                                      Questioned
       Number             Subgrantee        Tract       Amount                        Better
                                                                         Costs
                                                                                       Use
                                            McNeil
    F12AF70005            DMR/Lucedale                    $154,000       $143,541       $10,459
                                           Property
                                           Old Fort
    F12AF70016            DMR/LTMCP                        849,838         844,366           5,472
                                             Bayou
    F12AF70022             DMR/LMDC         LMDC          1,200,000      1,009,350      190,650
                                              Pass
                                           Christian
    F12AF70039                  DMR                       3,044,000      3,042,231           1,769
                                             Beach
                                          Front Park
                                           Hanover
    F12AF70040                  DMR                       1,294,500      1,289,316           5,184
                                             Point
                           Harrison        Potoman
    F12AF70118                                               18,910         13,558           5,352
                         County/LTMCP         LLC
                           Harrison       Swetman-
    F12AF70119                                               18,960          1,729       17,231
                         County/LTMCP      Meeboer
                                          Charnley-
    F12AF70185                  DMR                       1,045,400      1,023,780       21,620
                                          Norwood
    F12AF70206              DMR             Moran          540,180          15,056      525,124
    F12AF70214            DMR/LTMCP       Moss Point        16,594          13,173        3,421
                                           Reynolds
    F12AF70224                  DMR                        896,100         891,033           5,067
                                          Properties
    F12AF70232                  DMR       Pascagoula       245,000         231,659       13,341
                                            Harbor
    F12AF70270                  DMR                       3,725,300      3,695,253       30,047
                                            Landing
    F12AF70281           DMR/Pascagoula   Point Park        552,000              0       552,000
    M09AF15751               DMR          Wolf River        425,000        425,000             0
    Total                                              $14,025,872    $12,639,045    $1,386,737

Figure 7. Ineligible questioned costs for land acquisitions charged to CIAP grants through
December 2011.




1
    133 U.S. 553, 562 (1890).

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                              25
 Recommendations

 We recommend that FWS:

     16. Resolve the ineligible questioned costs of $12,639,045 resulting from
         land appraisals that do not meet Federal standards before allowing
         further drawdowns on land acquisition grants and ensure funds totaling
         $1,386,737 are put to better use;

     17. Require grantee and subgrantees to provide evidence that appraisers
         are competitively selected, do not present conflicts of interest, have
         demonstrated the ability to complete appraisals in accordance with
         Federal standards, and are approved by FWS before CIAP recipients
         draw down funds;

     18. Require CIAP grantees and subgrantees to obtain appraisal reviews
         that comply with Federal appraisal standards and ensure that the
         reviewers are competitively selected, do not present conflicts of
         interest, and have demonstrated the ability to perform appraisal
         reviews in accordance with Federal standards; and

     19. Review appraisals and appraisal reviews obtained by CIAP grantees on
         a regular basis to ensure compliance with Federal appraisal standards.


Circumvention of Sole-Source Procurement
Regulations
Four grant recipients in Mississippi—DMR, Hancock County, Harrison County,
and the Ohr-O’Keefe Museum of Art—circumvented Federal and State
procurement rules by continually awarding sole-source contracts without adequate
justifications. This allowed the recipients to avoid dollar thresholds and additional
procurement requirements by using purchase orders (POs) for services that should
have been charged directly to existing contracts. As of December 2011, the four
grant recipients issued sole-source contracts and POs totaling almost $1.4 million
and paid over $1 million for associated goods and services. We therefore have no
assurance that grantees paid the optimal price for services or that Federal funds
were equally available to all potential contractors (see Figure 8).

                                       Scope of
                                                                             Ineligible
                  Grantee/            Contract/          Contract/PO
 Contractor                                                                 Questioned
                 Subgrantee        Purchase Order         Amounts
                                                                               Costs
                                          (PO)
                                    Assist with State
       A             DMR                                         $89,500         $81,085
                                       CIAP Plan

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             26
                                      Scope of
                                                                             Ineligible
                  Grantee/            Contract/          Contract/PO
 Contractor                                                                 Questioned
                 Subgrantee       Purchase Order          Amounts
                                                                               Costs
                                        (PO)
                                   Administer State
       A             DMR                                         428,000          327,073
                                     CIAP Grants
                                     Manage Land
       A             DMR                                         200,847          168,312
                                     Acquisitions
                                       Develop
                                     Wastewater
       B             DMR                                          52,483           33,410
                                  Projects and Apply
                                      for Grants
                  Harrison        Administer County
       B                                                   No Maximum             108,448
                   County            CIAP Grants
                  Hancock         Administer County
       C                                                   No Maximum                   0*
                   County            CIAP Grants
                  Hancock           Implement GIS
       D                                                         430,875          127,628
                   County              Projects
                  Hancock            Design Sewer
       E                                                         135,275          141,810
                   County              Projects
       F         Ohr-O’Keefe      Design Landscape                32,800           33,650
                                                                   Over
    Total                                                                    $1,021,416
                                                             $1,369,780

Figure 8. Charges to CIAP grants for inadequately justified sole-source procurements.

*This grant is included because we questioned the use of a sole-source contract. Hancock
County had not yet sought reimbursement for any costs associated with the grant at the
time of our review.

In accordance with the Mississippi Code Annotated § 25-9-120(3)(a), all contracts
for professional and personal services must be procured through either
competitive-sealed bidding, competitive-sealed proposals, small purchases, sole-
source procurements, or emergency procurements. Procurements cannot be
divided or underestimated, and the total amount of the contract determines the
appropriate procedures for procurement of services. Service contracts for $50,000
or less may be procured from any source following agency rules and regulations.
Service contracts greater than $50,000 but not exceeding $100,000 may be
procured from the lowest acceptable bidder after obtaining three written quotes.
Service contracts over $100,000 may be procured from the lowest bidder or the
best proposal after advertising and soliciting for bids or proposals and are subject
to review and approval of Mississippi’s Personal Service Contract Review Board.
In select cases, an agency may determine a sole-source procurement to be
necessary. These types of procurements are not permissible unless a requirement
is available from only a single supplier. That determination must be justified and
approved in writing by the head of the State agency. The justification should


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             27
explain why no other vendor meets the need. Competition should be used if there
is any indication that another vendor can provide the same services. The
regulations also provide for the cancellation of contracts awarded in violation of
these requirements.

Department of Marine Resources
DMR provided $718,347 in sole-source awards to a real estate consulting firm
(Contractor A) consisting of 5 contracts and 55 POs that DMR should have
charged to an existing contract. DMR hired Contractor A to perform three main
services: (1) assist in writing the State CIAP plan, (2) administer the State’s CIAP
grants, and (3) manage CIAP land acquisitions.

In November 2006, Contractor A began work under a $44,500 sole-source
contract to help write the State CIAP plan. According to the sole-source
justification, Contractor A’s vice president was the only individual with relevant
experience to fulfill DMR’s needs, due to her prior work under a different CIAP
grant program established in 2001. 2 In June 2007, DMR amended the contract
cost to $89,500 and expanded its scope, requiring Contractor A to assist DMR and
the State’s three coastal counties with the grant application process (see Figure 9).

       Grant               Procurement                                                     Contract
                                                    Begin Date          End Date
      Number                 Method                                                        Amount
    F12AF70110          Contract No. 07-032           11/1/2006        12/31/2007               $44,500
                        Amendment to
    F12AF70110                                         6/8/2007        12/31/2007                 45,000
                        Contract No. 07-032
    Total                                                                                      $89,500

Figure 9. Sole-source contract awarded to Contractor A to help write the State CIAP plan.

These actions suggest that DMR attempted to avoid the requirement to obtain
three price solicitations and written responses for contracts totaling $50,001 to
$100,000. The amendment more than doubled the cost of the contract, bringing
into question whether the initial contract—only $5,501 short of the $50,001
threshold—reasonably estimated the job’s cost. Furthermore, since DMR officials
did not solicit price quotations or bids, they could not state with certainty that
only Contractor A was able to perform these tasks. Considering the influx of
Federal grant funds in the Gulf region following Hurricane Katrina, many other


2
  Public Law 106-553, Section 903 authorized CIAP in FY 2001 to assist States in mitigating the impacts
from Outer Continental Shelf oil and gas development and production. Congress appropriated $150 million to
seven coastal States—Alabama, Alaska, California, Florida, Louisiana, Mississippi, and Texas—and “coastal
political subdivisions” within those States, to implement this program. Under the program, Ocean and
Coastal Resource Management administered more than 150 separate grants to States and localities. CIAP
funded more than 600 projects, including habitat protection and restoration, land acquisition, and water
quality improvement projects. Congress reauthorized the program for FYs 2007 through 2010.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                                      28
individuals or firms could have had relevant experience in developing a State plan
and assisting with grant applications.

One month after completion of the contract, DMR provided Contractor A with
another sole-source contract for $41,000 to administer the State’s CIAP grants.
DMR justified this award based on the contractor’s unique experience and ability.
Contractor A subsequently received two additional sole-source contracts to
continue this work. These three contracts totaled $428,000 (see Figure 10).

    Grant              Procurement                 Begin                        Contract
                                                                 End Date
   Number                  Method                  Date                         Amount
 F12AF70110         Contract No. 08-053           2/1/2008       6/30/2008        $41,000
 F12AF70110         Contract No. 09-012           7/1/2008       6/30/2009         96,000
 F12AF70110
                    Contract No. 10-017           7/1/2009       6/30/2012          291,000
 F12AF70206
 Total                                                                            $428,000

Figure 10. Grant number and contract information for contracts DMR awarded to
Contractor A to administer Mississippi’s CIAP grants.

We found that DMR could have competed all three of the contracts because an
environmental consulting firm (Contractor B) had relevant experience
administering the 2001 CIAP grant program for Harrison County. Although the
director of DMR’s Office of Coastal Management and Planning informed us that
Contractor B did not want the State contract, we found no documentation showing
that DMR solicited Contractor B or any other individual or firm to bid on this
work. In addition, the CIAP administrator, who is also the vice president for
Contractor A, suggested that other firms were capable of successfully
administering the State’s CIAP grants. In an interview, she told us: “I’m not
saying I’m the only person who could have done this [type of work]—not at all.”

In March 2010, DMR issued the first of eight POs to pay Contractor A to manage
CIAP-funded land acquisitions. Over the next 2 months, DMR paid Contractor A
$34,800 for this work without a contract in place. In July 2010, Contractor A was
awarded yet another sole-source contract for $75,000 to continue managing the
land acquisitions under seven grants. DMR later amended the contract, adding
another $13,291 in costs. The sole-source justification for the contract stated that
Contractor A had extensive knowledge of CIAP and offered a unique combination
of services, including land appraisals, landscape design, and conservation
planning. DMR, however, provided no evidence indicating it attempted to
research other vendors that could perform these services, casting doubt on the use
of a sole-source contract.

Even with a contract in place, DMR continued to issue POs to Contractor A for
costs related to CIAP land acquisitions. In total, Contractor A received an

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             29
additional $77,756 from 47 POs, all of which related to the scope of the original
contract but were not charged to it (see Figure 11). DMR paid 56 percent of the
costs for managing CIAP land acquisitions using POs. By underestimating the
contract value, using different procurement methods rather than issuing a single
contract, and splitting similar purchases into several transactions, DMR avoided
the $100,000 threshold that would have triggered review by Mississippi’s
Personal Service Contract Review Board.

                               Procurement              Begin          End
    Grant Number                                                                  Amount
                                 Method                 Date           Date
 F12AF70039
                             8 Purchase Orders        3/25/2010      6/2/2010       $34,800
 F12AF70040
 F12AF70206
 F12AF70039
 F12AF70040
 F12AF70224                Contract No. 11-033         7/1/2010      6/30/2011        75,000
 F12AF70270
 F12AF70185
 F12AF70232
 F12AF70206
 F12AF70039
 F12AF70224                  Amendment to
                                                      3/18/2011      6/30/2011        13,291
 F12AF70270                Contract No. 11-033
 F12AF70185
 F12AF70232
 F12AF70206
 F12AF70039
 F12AF70040
 F12AF70224                 47 Purchase Orders        8/30/2010      12/8/2011        77,756
 F12AF70270
 F12AF70185
 F12AF70232
 Total                                                                            $200,847

Figure 11. Purchase orders and contracts DMR used as sole-source procurements to
Contractor A to manage CIAP land acquisitions.

In addition, DMR awarded Contractor B a sole-source contract for $50,000 to
develop wastewater projects and apply for CIAP funding. DMR officials justified
this procurement based on Contractor B’s knowledge of the subject area and
experience coordinating CIAP projects. Given the many wastewater projects
underway in the Gulf region, this justification does not demonstrate that
Contractor B was the only available firm able to do this work. Eight days after the
contract took effect, DMR issued one purchase order to Contractor B for work
related to, but not paid under, this contract. This action suggests that DMR


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             30
attempted to keep this procurement below the $50,001 limit to avoid obtaining
three price solicitations and written responses (see Figure 12).

     Grant              Procurement
                                                Begin Date         End Date      Amount
   Number                  Method
 F12AF70110          Contract No. 11-038          7/1/2010         6/30/2011        $50,000
 F12AF70110          1 Purchase Order             7/9/2010          7/9/2010          2,483
 Total                                                                             $52,483

Figure 12. Sole-source procurement and purchase order awarded to Contractor B to
develop wastewater projects and apply for grants.
Harrison County
On October 2, 2006, the Harrison County Board of Supervisors awarded
Contractor B a sole-source contract to administer Harrison County’s CIAP grants.
This time-and-materials contract did not set a maximum cost. A second time-and-
materials contract was awarded on March 9, 2009, for a cost not to exceed
$213,034 (see Figure 13). The sole-source justifications for these contracts stated
that Contractor B was the only firm with the “knowledge, experience, and ability
to efficiently move forward” with CIAP, since it had managed projects under the
prior CIAP beginning in 2001. Harrison County provided no evidence indicating
it attempted to research other vendors that could perform these services, casting
doubt on the use of a sole-source contract.

    Grant                                                Begin         End
                      Procurement Method                                          Amount
   Number                                                Date          Date
                    Contract Number Requested                                       No
 F12AF70006                                            10/2/2006     2/28/2009
                         but not Received                                         Maximum
                    Contract Number Requested
 F12AF70006                                             3/9/2009       None       $213,034
                         but not Received
                                                                                    Over
 Total
                                                                                  $213,034

Figure 13. Sole-source procurements awarded to Contractor B to administer CIAP grants
for Harrison County.

Hancock County
In February 2011, the Hancock County Board of Supervisors awarded a sole-
source, time-and-materials contract to Contractor C under grant F12AF70310 to
administer Hancock County’s CIAP grants. Although the contract does not state a
maximum cost, it sets the contractor’s hourly rate at $37.50. We found no
evidence, however, that the county competed this acquisition or justified it as a
sole-source award in writing. In the grant file, a BOEMRE contracting officer
acknowledged that Contractor C would receive a sole-source award for this work
since it had administered Federal grants for the county since 1997.



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             31
The Board of Supervisors also awarded a $430,875 sole-source contract to an
information technology company (Contractor D) under grant F12AF70274 to
track recovery from Hurricane Katrina by implementing a new geographic
information system (GIS). The county could not provide us with a written sole-
source justification. In BOEMRE’s grant file, however, a county official claimed
that Contractor D was the most experienced GIS firm in the area and that other
Mississippi counties set the precedent of providing sole-source awards to this
contractor. The official also stressed that the county was not aware of this grant
opportunity until Contractor D brought it to the county’s attention. Finally, the
official noted that dozens of “unqualified or out of state” firms would bid on this
contract if it were advertised, but county officials did not have the technical
knowledge to analyze the bids. Without advertising this opportunity and fostering
competition, however, Hancock County could not ascertain whether “unqualified”
firms would have bid on this project.
The county’s CIAP administrator informed us that the county also awarded a
$135,275 sole-source contract to an engineering firm (Contractor E) under grant
F12AF70115 to design sewer projects. According to the grant file, however, a
county official assured BOEMRE that all CIAP-funded procurements would be
competed in accordance with 43 C.F.R. § 12.76, which states that competition
should be used unless the service is available only from one source. We noted that
several engineering firms operate in the State’s Gulf region.

Ohr-O’Keefe Museum of Art
The Ohr-O’Keefe Museum of Art, a DMR subgrantee, awarded a sole-source
contract for $32,800 to a landscaping firm to provide a master landscaping plan
for an outdoor living laboratory under grant F12AF70028. According to museum
staff, the architect who designed the museum’s buildings recommended
Contractor F for the landscaping project. Museum officials, however, could not
provide a written sole-source justification for their selection of this contractor.
Since the officials informed us that they intended to follow State regulations for
this procurement, they should have competed the contract in the absence of an
adequate sole-source justification.

 Recommendations

 We recommend that FWS:

     20. Resolve the ineligible questioned costs of $1,021,416 from inadequately
         justified sole-source procurement awards charged to F12AF70006,
         F12AF70028, F12AF70039, F12AF70040, F12AF70110, F12AF70115,
         F12AF70185, F12AF70206, F12AF70224, F12AF70232, F12AF70270,
         and F12AF70274;




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             32
 Recommendations

     21. Require that CIAP recipients provide evidence of compliance with
         Federal procurement regulations, including requirements to follow
         grantees’ and subgrantees’ own procurement standards; and

     22. Develop and implement a plan to verify that CIAP recipients are not
         splitting procurements into smaller purchases to avoid competition
         thresholds.


Unallowable, Unallocable, and Unreasonable
Charges to CIAP Grants
DMR and its subgrantees charged a variety of supplies, services, and equipment
items to CIAP grants. To be eligible for Federal reimbursement, such expenses
must be allowable, allocable (within the scope of the grant), reasonable, and
adequately supported by price quotations, invoices, receipts, and similar
documentation. We found, however, that DMR (1) spent $23,967 on unallowable
promotional items, (2) incurred $2,229 in unallocable and unreasonable
registration costs for a conference, and (3) awarded a subgrant that resulted in
$203,847 in unsupported costs.

Unallowable Charges for Promotional Items
In May 2011, DMR cohosted a “Coastal Development Strategies Conference” in
Biloxi, MS, dealing with climate change, energy and resiliency, infrastructure,
development, and other similar issues. DMR charged $23,967 for conference
souvenirs to a CIAP grant that was awarded for the conservation of the heritage
resources of the Mississippi Gulf Coast (see Figure 14). The souvenirs—
described as “promotional” in the State’s accounting system—included gourmet
aprons, tote bags, golf bag coolers, and commemorative coins. In addition, DMR
officials purchased hundreds more items than needed, since only 320 people
registered for the conference.

                                             Number
                Item                                                    Total Cost
                                            Purchased
 Gourmet Aprons                               1,000                                 $11,527
 Tote Bags                                    1,250                                   4,898
 Golf Bag Coolers                              250                                    4,578
 Commemorative Coins                           519                                    2,964
 Total                                                                             $23,967

Figure 14. Unallowable promotional items charged to F12AF70001.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             33
Federal regulations state that the costs of promotional items and memorabilia,
including gifts and souvenirs, are not allowed under Federal grants and are not
even considered incidental costs of hosting a conference. Since DMR officials did
not follow this regulation, they now have fewer funds available to conserve
heritage resources and have jeopardized their ability to fulfill the grant objectives.

Unallocable and Unreasonable Conference Registration Fees
DMR charged $2,229 to grant F12AF70148 to cover registration fees for two
employees attending a conference and trade fair on business and the environment
in Vancouver, Canada, in March 2012. DMR received this grant to support an
environmental stewardship program in the State’s elementary schools. Nothing in
the conference agenda related to this objective. In addition, DMR conference
attendees never charged time to any CIAP grant, making their participation in the
conference of questionable benefit to CIAP.

As stated in Federal regulations, costs are only allocable to a cost objective (i.e., a
grant award) if they are chargeable or assignable in accordance with the relative
benefits received. Reasonable costs must (1) be generally recognized as ordinary
and necessary for the operation of the governmental unit or the performance of
the Federal award and (2) not represent a significant deviation from the grantee’s
established practices. Because DMR spent $2,229 that was not allocable to this
grant and did not meet the standards for reasonable costs, the State’s elementary
schools did not receive these funds to educate students on environmental
stewardship.

Unsupported Costs Incurred by a Subgrantee
DMR awarded a subgrant to the Institute for Marine Mammal Studies (IMMS) to
be used for research, rescue, and rehabilitation of stranded marine animals. After
excluding payroll, travel, gasoline, and all expenses less than $100, we selected
$251,035 from the remaining $462,750 charged to grant F12AF70237
(54 percent) for review. Less than 20 percent of the expenditures in our sample
were supported adequately enough to justify Federal reimbursement. 3

Specifically, IMMS staff—

    •    could not demonstrate that $37,649 in expenditures was approved before
         being invoiced;
    •    could not provide competitive price quotations for purchases worth
         $30,989;
    •    made a payment on a $116,050 noncompetitive purchase before preparing
         the sole-source justification or obtaining approval from DMR; and


3
  Two purchases were not supported due to multiple problems. As a result, the sum of the expenditures from
the individual examples in this section exceeds the questioned costs related to this grant.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                                        34
    •   selected vendors before seeking competitive price quotations for items
        totaling $144,307.

IMMS’s procurement policies state that all expenditures “should be meticulously
[original emphasis] recorded” on a Purchase Order, and “all purchases should be
PRE-APPROVED [original emphasis] and price comparison should be done and
documented prior to purchase” for items costing $100 or more. Although IMMS
has no specific policies for noncompetitive procurements, 43 C.F.R. §
12.76(g)(2)(ii) allows the awarding agency to review documentation supporting
these procurements prior to purchase.

 Recommendations

 We recommend that FWS:

     23. Resolve the ineligible questioned costs of $23,967 charged to grant
         F12AF70001 and $2,229 charged to grant F12AF70148;

     24. Resolve the ineligible questioned costs of $203,847 charged to grant
         F12AF70237; and

     25. Instruct DMR and IMMS staff members involved in the procurement
         process to follow applicable Federal regulations and the terms and
         conditions of CIAP grant agreements, and provide documentation to
         demonstrate this compliance to FWS.

Equipment Purchased With CIAP Funds Used
Improperly
DMR expended $195,743 of CIAP grant funds on equipment, much of which was
assigned to employees who never charged time to CIAP. We also identified
instances of DMR staff misusing CIAP equipment, leading us to question
$107,443 of these costs (see Figure 15).

                                                                              Ineligible
    Grant
                                       Grant Title                           Questioned
   Number
                                                                                Costs
                     Sustainable Development and Smart Growth
 F12AF70003                                                                          $3,189
                                 Management Initiative
 F12AF70107                  Impact Monitoring Program                                 1,508
 F12AF70109           Coastal Wetlands Database Enhancement                           91,330
                        Aquatic Invasive Species Coordination,
 F12AF70112                                                                              400
                     Assessment and Control Plan Implementation
 F12AF70148          Mississippi Environmental Stewardship Program                    11,016
 Total                                                                            $107,443
Figure 15. Ineligible equipment costs charged to CIAP grants.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             35
With that $107,443, DMR bought several portable electronic devices for $88,027,
including 13 laptop computers, 12 digital cameras, and 10 GPS receivers. Only
two of these items, a digital camera and a laptop, were assigned to a staff member
who charged part of her time to CIAP projects. DMR provided the remaining
questioned items to personnel who charged no time to CIAP activities.
DMR also charged a towable trailer costing nearly $2,000 and assigned this item
to an employee who did not charge time to CIAP. During our audit fieldwork, this
individual informed us that she planned to use the trailer to deliver materials
promoting DMR to the “Second Annual Pass Christian Oyster Festival.” She
confirmed that this use was not related to CIAP. We visited the festival and
verified that DMR staff had used the trailer to transport items such as cookbooks,
hand sanitizer, bumper stickers, and fishing guidebooks to a booth at the festival.
None of these materials were related to CIAP or the objectives of the grant that
funded the purchase of the trailer.

According to the CIAP grant agreements, “[a]ny real property or equipment that
is improved or acquired with Federal grant funds must be used for the originally
authorized purposes as long as needed for those purposes.” Since the grants to
which DMR charged the equipment were ongoing at the start of our audit, the
CIAP-funded equipment should still be needed and used for grant purposes.
DMR’s misuse of these CIAP funds has reduced the amount available to
conserve, protect, and restore the State’s natural coastal environment—a primary
CIAP objective.

 Recommendations

 We recommend that FWS:

     26. Resolve the ineligible questioned costs of $107,443 charged to grants
         F12AF70003, F12AF70107, F12AF70109, F12AF70112, and
         F12AF70148; and

     27. Require DMR to prorate the cost of each piece of equipment among
         the projects benefitting from its use, and provide documentation to
         FWS evidencing proper use.


Mishandled Accounting and Financial Issues
Federal grant regulations require specific and accurate accounting of all grant
transactions to ensure that funds are being fairly spent and accurately recorded.
We found a myriad of mishandled accounting and financial issues with CIAP
grant funds in the State of Mississippi, including an improper recording of
transactions in the financial management system, unsupported payroll expenses,
unsupported indirect costs, and unreported program income.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             36
Financial Management System
DMR received several grants under CIAP to purchase real property for green
space and conservation. DMR officials, however, incorrectly charged four CIAP
land appraisals to other Federal awards and never corrected these errors. DMR
charged $17,000 to the National Oceanic and Atmospheric Administration’s
Emergency Disaster Recovery Program (EDRP) for land appraisals authorized
under three CIAP grants. Congress provided EDRP funds to aid in the recovery of
the marine resources and fisheries industry following Hurricanes Katrina, Rita,
and Wilma.

DMR failed to transfer the erroneous appraisal charges, totaling $17,000, to the
appropriate CIAP grants, even though approximately 2 years have passed since
the appraisals were performed (see Figure 16). According to 43 C.F.R. § 12.60,
States must follow their own laws and procedures to account for grant funds.
Accordingly, the State’s accounting manual notes that identifying erroneous
transactions and adjusting the accounting records on a timely basis helps ensure
the accuracy of accounting information.

                                             Correct
 Improper Funding                            Funding           Transaction        Months
                             Amount
 Source Charged                            Source (CIAP           Date            Elapsed
                                              Grant)
 EDRP                           $6,000      F12AF70224           12/10/2009           25
 EDRP                              500      F12AF70224            4/22/2010           21
 EDRP                            3,000      F12AF70232             4/6/2010           21
 EDRP                            7,500      F12AF70270            5/24/2010           20
 Total                         $17,000

Figure 16. CIAP land appraisals erroneously charged to other Federal funds.

These accounting issues arose due to two main reasons. First, DMR officials had
to complete the appraisals before applying for land acquisition grants since the
requested funding amounts depended largely on the results of the appraisals. In
order to timely pay the appraisers, the officials charged other available Federal
funds for the CIAP-related appraisal costs. Second, DMR’s Coastal Management
and Planning Office director, who oversees the State’s administration of CIAP,
informed us that she knew these costs needed to be transferred but had not
completed the necessary paperwork.

As a result, we cannot determine the extent to which the State’s financial
management system accurately reflects CIAP expenditures. Additional expenses
attributable to CIAP could still be charged to other Federal awards or vice versa,
making DMR’s Federal financial reports unreliable.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             37
Unsupported and Ineligible Payroll Expenses
Federal regulations outline specific requirements for charging salaries and wages
to Federal grants:

    •   Salaries and wages to Federal awards must be supported by personnel
        activity reports.
    •   The reports must reflect an after-the-fact distribution of the actual activity
        of each employee.
    •   Budget estimates or distribution percentages determined before the
        services are performed do not qualify as support for charges to Federal
        awards.
    •   Each report must account for the employee’s total compensated activities.
    •   The reports must be signed by the employee, must be prepared at least
        monthly, and must coincide with one or more pay periods.

DMR, Hancock County, and four subgrantees could not support $1.3 million in
payroll expenses charged to CIAP grants. Specifically, they tracked payroll with
personnel activity reports that did not meet Federal requirements, charged CIAP
grants for unrelated work, and used budgeted hours to charge payroll to CIAP
projects (see Figure 17).

     Grant               Abbreviated                                           Questioned
                                               Grantee       Subgrantee
    Number                Grant Title                                            Costs
                         Documenting
 F12AF70001                                      DMR             None               $141,012
                      Heritage Resources
                       Coastal Wetland
 F12AF70004                                      DMR             None                 85,882
                       Impact Database
                     Old Fort Bayou Land
 F12AF70016                                      DMR            LTMCP                 11,878
                           Acquisition
 F12AF70018          Green Infrastructure        DMR            LTMCP                 10,939
                      Ozone Forecasting
 F12AF70043                                      DMR              DEQ                 94,732
                             Service
 F12AF70110          CIAP Administration        DMR              None                   3,955
                       Tchoutacabouffa         Harrison
 F12AF70118                                                     LTMCP                   4,109
                        River Greenway         County
                          Biloxi River         Harrison
 F12AF70119                                                     LTMCP                   2,393
                           Greenway            County
                         Environmental
 F12AF70148                                      DMR             None                   7,464
                     Stewardship Program
                       Moss Point Land
 F12AF70214                                      DMR            LTMCP                   3,298
                           Acquisition
                          Empowering           Hancock
 F12AF70219                                                      None                 27,529
                      Ecological Stewards      County
                       Pascagoula River
 F12AF70228                                      DMR            LTMCP                   3,140
                          Ecotourism


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             38
     Grant               Abbreviated                                           Questioned
                                               Grantee       Subgrantee
    Number               Grant Title                                             Costs
                         Marine Animal
 F12AF70237                                      DMR             IMMS                862,441
                          Strandings
 Total                                                                           $1,258,772

Figure 17. Unsupported and ineligible payroll costs charged to CIAP grants.

Personnel Activity Reports
We obtained and reviewed payroll documentation from IMMS and determined
that they did not sufficiently meet the C.F.R. requirements for personnel activity
reports, also known as timesheets. Federal regulations require that such reports
must be signed by the individual employee or a responsible supervisor with
firsthand knowledge of the activities performed by the employee. We found,
however, that timesheets from IMMS were initialed only by the vice president
and chief financial officer, who has no supervisory duties over the personnel
charging time to the grant, and we have no documentation demonstrating that the
employees’ actual supervisors were consulted during the preparation of these
timesheets. Furthermore, while the timesheets do contain the code “stranding” for
CIAP-related charges, we found several instances where hours listed as “regular”
were assigned to CIAP with no evidence to support such an allocation. Therefore,
we have no assurance that employees’ time is being charged to the correct
funding source.

Work Performed Outside the Grant Scope
We interviewed a Mississippi Department of Environmental Quality (MDEQ)
scientist who stated that he has charged all of his time to a CIAP grant awarded to
provide ozone forecasts for Hancock, Harrison, and Jackson Counties. He
informed us, however, that during the grant period, he also worked on ozone
issues in DeSoto and Lauderdale Counties, which are approximately 350 and 150
miles away, respectively, from the three coastal counties listed in the grant
agreement. For example, the MDEQ scientist helped determine the environmental
effects of a power plant in Kemper County during the grant period. The scientist’s
supervisor, who managed this project for the subgrantee, acknowledged that
MDEQ should not charge any hours to the grant for work outside the State’s
coastal zone.

Because the scientist charged all of his time to this grant while simultaneously
working in unrelated areas, we could not determine how much of his payroll costs
relate to the actual grant.

Budgeted Hours Used to Charge Payroll to CIAP Projects
Federal regulations require grantees to document and charge actual hours worked
toward grant objectives. Budget estimates or other distribution percentages
determined before services are performed do not qualify as support for charges to

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             39
Federal awards. We found, however, that DMR employees used budgeted hours
to charge time to CIAP grants. According to DMR employees, its accounting
department had a list of the percent of time to charge and would use that to charge
the employees’ respective projects. Regardless of timesheets, payroll charges
against DMR grants were always based on budgeted hours.

Hancock County used budgeted hours for part of a teacher’s salary to carry out a
grant for high school students. The teacher was given $17,300 as a rider to her
contract for the CIAP work, which was then distributed evenly in her monthly
paychecks.

Indirect Costs
DMR charged indirect costs to three CIAP grants to pay for central services, such
as human resources, accounting, and procurement services that benefit those grant
programs. From State fiscal years (SFYs) 2007 through 2011 (July 1, 2006, to
June 30, 2011), the U.S. Department of Commerce approved the indirect cost
rates used by DMR on all of its Federal grants. In SFY 2012, this function shifted
to DOI, but DMR did not seek the requisite approval for its indirect cost rate from
DOI because it was unaware of this requirement.

As a result, in SFY 2012, DMR used an unsupported rate to charge indirect costs
not only to its CIAP grants but also to all of its other Federal grants. Therefore, all
indirect costs charged under DMR’s CIAP grants in SFY 2012 are unsupported
(see Figure 18).

    Grant                                                                   Unsupported
                                       Grant Title
   Number                                                                  Indirect Costs
 F12AF70107                  Impact Monitoring Program                              $1,869
 F12AF70110          Administrative Costs of Complying with CIAP                   $24,577
 F12AF70222            Restoring Fish Stocks in the MS Sound                       $43,072
 Total                                                                            $69,518

Figure 18. Unsupported indirect costs charged to CIAP grants.

Without taking corrective action, DMR could continue to charge unsupported
indirect costs to all of its Federal grants.

Program Income
CIAP grant recipients in Mississippi did not report at least $43,882 in program
income earned on two grants as required by Federal regulations. Program income
is gross income received by a grantee. The income is “directly generated by a
grant supported activity, or earned only as a result of the grant agreement during
the grant period.” If a recipient earns program income, the income should be
deducted from the total grant amount unless the grant agreement specifies an
alternative. With the deduction method, program income is deducted from the

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             40
grant amount, making more Federal funds available for other projects to restore,
preserve, and conserve Mississippi’s coastal environment.

In one instance, we found that the Hancock County Board of Supervisors was
awarded a grant to install 260 new sewer lines in homes around the county. These
sewer lines replaced the existing septic tanks, some of which were leaching waste
into Gulf waters. Homeowners were required to pay a $32 monthly service fee
after these new lines were connected. As a result, from October 2010 through
January 2012, the County earned $43,232 in service fees for 206 active sewers.

The grant periods for each of the two grants remains open and, therefore, the
amount of program income earned will continue to increase. In addition, both
Harrison County and Jackson County plan to install sewer lines that could also
earn substantial program income.

Revenue earned from these programs was not reported appropriately because the
State of Mississippi and Hancock County officials believed the fees earned were
for operations and maintenance, not program income. Operations and
maintenance, if authorized by Federal regulations or the grant agreement,
however, is a deduction from program income, not in lieu of program income.
Neither CIAP grant guidance nor the grant award allows grantees to use program
income for operations and maintenance. Furthermore, neither State nor county
officials could provide us with documentation showing that program income was
used for operations and maintenance.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             41
 Recommendations

 We recommend that FWS:

     28. Resolve the unsupported questioned costs of $1,254,817 and the
         ineligible questioned costs of $3,955 in payroll costs;

     29. Resolve the $17,000 in land appraisals erroneously charged to other
         Federal funds;

     30. Require DMR to adjust accounting errors in a timely manner in
         accordance with the Mississippi Agency Accounting Policies and
         Procedures Manual;

     31. Require DMR to determine if other CIAP expenses have been
         inappropriately charged to other funding sources (or vice versa) and
         correct any errors;

     32. Establish and implement procedures to ensure that when employees
         charge time to more than one grant, payroll charges are adjusted to
         reflect the actual hours worked on those grants;

     33. Enforce Federal regulations and DMR policy requiring employees to
         record the amount of time they worked on each project on their
         timesheets;

     34. Resolve the unsupported indirect costs of $69,518 charged to grants
         F12AF70107, F12AF70110, and F12AF70222;

     35. Require DMR to implement policies and procedures to ensure that it
         does not charge indirect costs to CIAP grants before entering into an
         indirect cost rate agreement with the appropriate Federal agency;

     36. Resolve the $43,882 in unreported program income; and

     37. Provide additional guidance to State and county CIAP staff to ensure
         they understand the concept of program income and that they can
         identify, disburse, and report program income.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             42
Conclusion and Recommendations
Conclusion
The findings documented in our audit cover a range of improper activities and
serious management deficiencies that raise significant questions about the
expenditure of millions of dollars and the stewardship of public funds through
CIAP grant projects. The problems began with BOEMRE’s poor administration
and lax monitoring of early grant projects and have persisted under FWS’
management.

CIAP grants have been approved that failed to support an authorized use under
the law. Conflicts of interest within the Mississippi DMR have marred the
program and the public’s perception of CIAP. Improper land appraisals have
undermined CIAP’s intended impact of protecting environmentally fragile coastal
areas and communities. In the areas of procurement and accounting, sole-source
regulations were circumvented; unallowable, unallocable, and unreasonable
charges were allowed to be made on certain grants; and equipment purchases and
other financial issues were mishandled.

We believe our recommendations will assist FWS in resolving systemic
deficiencies and personnel issues that have affected the policies, implementation,
administration, management, and oversight of CIAP. Failure to act on these
recommendations could further undermine CIAP and open the door to fraud,
waste, and mismanagement of millions of dollars in Federal funds meant to
conserve, protect, and restore American coastal areas, wildlife, and natural
resources.

Recommendations Summary
We recommend that:

    1. FWS design and implement monitoring procedures to ensure that grantees
       submit timely financial and performance reports.

        FWS Response
        FWS concurred with this recommendation. FWS provided CIAP grantees
        guidance to ensure that financial and performance reporting conformed to
        DOI and WSFR policies. FWS’ full response is included as Appendix 4.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed Appendix 5
        summarizes the status of all 37 recommendations.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             43
    2. FWS review financial and performance reports and resolve any identified
       issues with grantees.

        FWS Response
        FWS concurred with this recommendation. FWS noted that monitoring
        policies and procedures and grantee guidelines have been revised and
        implemented.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    3. FWS conduct and document regular site visits to ensure compliance with
       grant objectives.

        FWS Response
        FWS concurred with this recommendation. Site visits are conducted
        regularly and documented through trip reports. These reports are
        submitted to the CIAP branch chief for review and approval.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    4. FWS independently assess risk of CIAP grant recipients and determine
       how and when to employ various monitoring tools, such as requiring
       additional reporting or adherence to the 10 percent rule.

        FWS Response
        FWS did not concur with this recommendation. FWS stated that its
        “mandate was to process the grants in an expeditious, efficient, accurate
        manner in order to make timely awards.” FWS did not conduct its own
        risk assessment for the eligible grantees because it relied on the risk
        assessments conducted by BOEMRE.

        OIG Analysis of FWS Response
        We consider this recommendation unresolved. We found multiple
        deficiencies in the BOEMRE risk assessments, especially regarding the
        lack of conflict-of-interest policies, making them unreliable. Further,
        many of the eligible grantees receiving CIAP funds are local governments
        that are grantees new to FWS. We maintain our position that not
        conducting its own risk assessments after being briefed in March 2012 of
        the egregious concerns detailed in this report was detrimental to the
        program. We do not believe choosing speed over stewardship was prudent.
        We request that FWS reconsider performing risk assessments. When
        resolved, we will refer this recommendation to the Assistant Secretary for
        Policy, Management and Budget to track its implementation.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             44
    5. Modify its hiring process to eliminate the State’s influence regarding the
       hiring of the State’s CIAP liaison.

        FWS Response
        FWS did not concur with this recommendation. FWS requested a review
        by the Department of Human Resources, specifically related to privacy,
        ethics, and Federal hiring violations. The Director of Human Resources
        determined the hiring process complied with Federal and FWS hiring
        policies.

        OIG Analysis of FWS Response
        We consider this recommendation unresolved. After further consideration,
        we removed draft language stating this practice was illegal. While FWS
        did not violate any hiring rules, we believe that it would be a better
        practice to hire grant liaisons independently from those grantees that they
        are hired to monitor. When resolved, we will refer this recommendation to
        the Assistant Secretary for Policy, Management and Budget to track its
        implementation.

    6. DOI’s Assistant Secretary for Policy, Management and Budget resolve the
       ineligible questioned costs of $1,212,737 awarded by BOEMRE and
       address the $4,650,463 in funds to be put to better use.

        FWS Response
        FWS did not concur with this recommendation. While FWS
        acknowledged that not all aspects of the projects mentioned in this section
        directly benefit coastal resources, it noted that each project contains
        components that clearly fulfill the requirements of the authorized uses
        (AUs). FWS also stated that the completion of these projects provides a
        greater overall good than is quantified in the individual awards, which in
        many cases funded only a small portion of a larger construction project
        intended to benefit the public. Therefore, FWS considered each of the
        projects to meet the AU for which it was awarded. Furthermore, FWS
        stated that the deviations from grant objectives observed by OIG staff on
        these projects are consistent with the original intent of the approved
        projects in the State plan, or will be adjusted to ensure consistency prior to
        grant closure.

        OIG Analysis of FWS Response
        We consider this recommendation unresolved. While these projects may
        provide a public good and may deserve public funding, we do not believe
        there is sufficient justification for CIAP to provide that funding. We
        acknowledge that certain aspects of these projects do appear to meet the
        requirements set forth by AU1, such as the planting of native vegetation or

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             45
        coastal conservation, but these aspects often represented a minor portion
        of the overall funding. The fact that a small portion of a project may serve
        for the conservation, protection, or restoration of coastal areas does not
        justify substantial additional funding that falls outside of those parameters,
        thus causing us to question whether any projects initially determined to
        provide little or no direct benefit to the natural coastal environment were
        designed or completed in the spirit of the Act. When resolved, we will
        refer this recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    7. FWS review and revise CIAP guidance to ensure compliance with the Act.

        FWS Response
        FWS concurred with this recommendation. FWS substantially retained the
        BOEMRE guidance but revised the process for making substantial
        changes to approved projects and more fully describing and justifying
        modifications to approved projects. Changes now require a supplemental
        public review.

        OIG Analysis of FWS Response
        We consider this recommendation unresolved. As support for its response,
        FWS provided us with a copy of the July 2010 BOEMRE “State Plan
        Receipt and Review Standard Operating Procedures.” We could not
        identify any modifications to the policy. We request that FWS reconsider
        our recommendation to revise CIAP guidance and modify the standard
        operating procedures to clarify the parameters for meeting the authorizing
        legislation. When resolved, we will refer this recommendation to the
        Assistant Secretary for Policy, Management and Budget to track its
        implementation.

    8. FWS review all open CIAP grants and Mississippi’s State plan and
       conduct regular site visits of high-risk grant projects to ensure compliance
       with the CIAP requirement.

        FWS Response
        FWS concurred with this recommendation. FWS reviewed the Mississippi
        State plan and found it complied with all CIAP requirements. The State
        liaison conducts site visits and monitors project progress.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    9. FWS resolve the $8,870,378 in ineligible questioned costs arising from
       potential conflicts of interest regarding DMR’s and Harrison and Hancock


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             46
        Counties’ administration of CIAP and address the $7,158,342 of funds to
        be put to better use.

        FWS Response
        FWS concurred with this recommendation. FWS will work with grantees
        to resolve this issue. They have reviewed 4 of the 23 grants containing
        conflicts of interest and consider these closed.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We
        request that FWS provide more detail on the resolution of the four
        reviewed grants to consider them closed. When all 23 grants are resolved,
        we will refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    10. FWS review the State’s CIAP grants to identify and rectify potential
        conflicts of interest; such action could include requiring grantee and
        subgrantee staff to report memberships on boards of directors of outside
        organizations, reviewing large contracts and other procurement
        transactions for propriety, comparing the names of individuals involved in
        grant projects with a list of DMR or county employees, and performing
        site visits and formally informing employees of ways to report fraud,
        waste, and mismanagement to independent authorities.

        FWS Response
        FWS concurred with this recommendation. FWS is working with grantees
        and subgrantees to resolve this issue and provide State and county staffs
        with a mechanism to report waste, fraud, and mismanagement. The
        Mississippi Commission on Marine Resources has installed oversight
        committees to monitor contract expenditures and land acquisitions.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. Recent
        media coverage has called into question the independence and legitimacy
        of the Mississippi Commission on Marine Resources. FWS should ensure
        proper oversight of its grantees. We will refer the recommendation to the
        Assistant Secretary for Policy, Management and Budget to track its
        implementation.

    11. FWS require DMR to provide support that it is complying with and
        implementing Chapter 30, “Internal Control,” from the Mississippi
        Agency Accounting Policies and Procedures Manual, per the C.F.R.
        requirement.



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             47
        FWS Response
        FWS concurred with this recommendation. DMR implemented various
        internal control policies and procedures in March 2013.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    12. FWS require DMR to establish safeguards to prohibit employees from
        using their positions for a purpose that constitutes or presents the
        appearance of personal or organizational conflict of interest, or personal
        gain, as required by the assurance statements for Federal financial
        assistance, and periodically review compliance with the safeguards.

        FWS Response
        FWS concurred with this recommendation. DMR implemented various
        internal control policies and procedures in March 2013.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    13. FWS require the State to publicly announce each land parcel considered
        for purchase with CIAP funds, allow ample time for public comment, and
        report the comments to FWS prior to issuance of the grant award.

        FWS Response
        FWS did not concur with this recommendation. FWS is working with
        grantees to verify that all CIAP recipients follow appropriate Federal and
        State land acquisition procedures. FWS believes requiring public comment
        on each land purchase would place an undue burden on recipients.

        OIG Analysis of FWS Response
        We consider this recommendation unresolved. The State of Mississippi
        included one large project for land purchases rather than individual
        projects. DMR solicited public interest in selling property, but the majority
        of land purchases were bought from individuals with a personal
        relationship with DMR employees. We believe DMR owes the public the
        chance to comment on potential land purchases to prevent further conflicts
        in land acquisitions. We request that FWS reconsider this recommendation
        for any remaining land purchases. When resolved, we will refer this
        recommendation to the Assistant Secretary for Policy, Management and
        Budget to track its implementation.

    14. FWS monitor real property purchased with CIAP funds to ensure that
        grantees and subgrantees do not inappropriately dispose of such


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             48
        property, with particular attention given to the Harbor Landing site and to
        acquisitions involving a potential conflict of interest.

        FWS Response
        FWS concurred with this recommendation. FWS actively monitors grant-
        funded activities to ensure that the property continues to be used for the
        purpose for which it was acquired. In addition, FWS provided training to
        grant recipients on land acquisition, disposal, and management in
        perpetuity in FY 2012 and has not received any formal requests to dispose
        of property.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.
    15. FWS require DMR to account for all revenues and expenditures related to
        the Harbor Landing boat storage facility beginning with the date DMR
        took ownership of the property.

        FWS Response
        FWS concurred with this recommendation. FWS is working with DMR to
        resolve this issue, and DMR is compiling the materials necessary for
        review.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    16. FWS resolve the ineligible questioned costs of $12,639,045 resulting from
        land appraisals that do not meet Federal standards before allowing
        further drawdowns on land acquisition grants and ensure funds totaling
        $1,386,737 are put to better use.

        FWS Response
        FWS partially concurred with this recommendation. FWS agreed that the
        appraisals did not meet the technical standards for Federal appraisals.
        FWS is conducting supplemental reviews and is contracting for a
        specialized, certified review appraiser. FWS did not agree that land
        acquisition funds should be held and put to better use.

        OIG Analysis of FWS Response
        We consider this recommendation unresolved. FWS concurred with the
        questioned costs related to land appraisals that did not meet Federal
        standards. As a result, FWS has an obligation to discontinue payment on
        any land acquisition and allow those funds to be put to better use. When


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             49
        resolved, we will refer this recommendation to the Assistant Secretary for
        Policy, Management and Budget to track its implementation.

    17. FWS require grantee and subgrantees to provide evidence that appraisers
        are competitively selected, do not present conflicts of interest, have
        demonstrated the ability to complete appraisals in accordance with Federal
        standards, and are approved by FWS before CIAP recipients draw down
        funds.

        FWS Response
        FWS concurred with this recommendation and provided supplemental
        guidance to all grant recipients. This proposed supplemental guidance
        requires an appraisal review for most acquisitions.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.
    18. FWS require CIAP grantees and subgrantees to obtain appraisal reviews
        that comply with Federal appraisal standards and ensure that the reviewers
        are competitively selected, do not present conflicts of interest, and have
        demonstrated the ability to perform appraisal reviews in accordance with
        Federal standards.

        FWS Response
        FWS concurred with this recommendation. FWS proposed new policy and
        standard operating procedures that includes review of land appraisals by a
        certified review appraiser and reiterates compliance with the terms and
        conditions of the grant, including the annually submitted assurances.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    19. FWS review appraisals and appraisal reviews obtained by CIAP grantees
        on a regular basis to ensure compliance with Federal appraisal standards.

        FWS Response
        FWS concurred with this recommendation. FWS is reviewing all
        appraisals and appraisal reviews on CIAP-funded land purchases. DMR is
        preparing internal standard operating procedures and creating additional
        safeguards to ensure that all costs associated with land acquisitions using
        Federal funds are supported.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.



This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             50
    20. FWS resolve the ineligible questioned costs of $1,021,416 from
        inadequately justified sole-source procurement awards charged to
        F12AF70006, F12AF70028, F12AF70039, F12AF70040, F12AF70110,
        F12AF70115, F12AF70185, F12AF70206, F12AF70224, F12AF70232,
        F12AF70270, and F12AF70274.

        FWS Response
        FWS concurred with this recommendation. FWS is working with grantees
        to resolve the questioned costs and is reviewing documentation provided
        by grantees in March 2013. Pending the outcome of that review, FWS will
        instruct grantees and subgrantees to credit back any questioned costs that
        are not adequately supported by documentation to justify sole-source
        procurement awards.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    21. FWS require that CIAP recipients provide evidence of compliance with
        Federal procurement regulations, including requirements to follow
        grantees’ and subgrantees’ own procurement standards.

        FWS Response
        FWS concurred with this recommendation. FWS is verifying that all CIAP
        recipients are aware of the need to follow Federal guidelines as well as
        FWS’ internal controls and standards of operations.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    22. FWS develop and implement a plan to verify that CIAP recipients are not
        splitting procurements into smaller purchases to avoid competition
        thresholds.

        FWS Response
        FWS concurred with this recommendation. FWS is verifying that all CIAP
        recipients are aware of the need to follow Federal guidelines as well as
        FWS’ internal controls and standards of operations.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             51
        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    23. FWS resolve the ineligible questioned costs of $23,967 charged to grant
        F12AF70001 and $2,229 charged to grant F12AF70148.

        FWS Response
        FWS concurred with this recommendation. FWS is working with the
        grantees as they provide the necessary documentation on the questioned
        costs. Any unsupported costs will be reflected on a revised Federal
        Financial Report.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    24. FWS resolve the ineligible questioned costs of $203,847 charged to grant
        F12AF70237.

        FWS Response
        FWS concurred with this recommendation. FWS is working with the
        grantees as they provide the necessary documentation on the questioned
        costs. Any unsupported costs will be reflected on a revised Federal
        Financial Report.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    25. FWS instruct DMR and IMMS staff members involved in the procurement
        process to follow applicable Federal regulations and the terms and
        conditions of CIAP grant agreements, and provide documentation to
        demonstrate this compliance to FWS.

        FWS Response
        FWS concurred with this recommendation and provided training in FY
        2012 to CIAP grantee and subgrantee staff members to reiterate the
        importance of complying with Federal regulations and grant
        administration requirements. In addition, grantees have been informed of
        the importance of following their own procurement procedures, provided


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             52
        that they conform to applicable laws and standards found in 43 C.F.R.
        § 12.76.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    26. FWS resolve the ineligible questioned costs of $107,443 charged to grants
        F12AF70003, F12AF70107, F12AF70109, F12AF70112, and
        F12AF70148.

        FWS Response
        FWS concurred with this recommendation. FWS is working with the
        grantees as they provide the necessary documentation on the questioned
        costs. Any unsupported costs will be reflected on a revised Federal
        Financial Report.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    27. FWS require DMR to prorate the cost of each piece of equipment among
        the projects benefitting from its use, and provide documentation to FWS
        evidencing proper use.

        FWS Response
        FWS concurred with this recommendation. FWS is working with the
        grantees as they provide the necessary documentation on the questioned
        costs. Any unsupported costs will be reflected on a revised Federal
        Financial Report.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    28. FWS resolve the unsupported questioned costs of $1,254,817 and the
        ineligible questioned costs of $3,955 in payroll costs.

        FWS Response
        FWS concurred with this recommendation. FWS is working with the
        grantees as they provide the necessary documentation on the questioned
        costs. Any unsupported costs will be reflected on a revised Federal
        Financial Report.


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             53
        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    29. FWS resolve the $17,000 in land appraisals erroneously charged to other
        Federal funds.

        FWS Response
        FWS concurred with this recommendation and DMR has corrected the
        $17,000 of appraisal costs.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.

    30. FWS require DMR to adjust accounting errors in a timely manner in
        accordance with the Mississippi Agency Accounting Policies and
        Procedures Manual.

        FWS Response
        FWS concurred with this recommendation. FWS is working with DMR to
        ensure that accounting errors are adjusted in a timely manner.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.
    31. FWS require DMR to determine if other CIAP expenses have been
        inappropriately charged to other funding sources (or vice versa) and
        correct any errors.

        FWS Response
        FWS concurred with this recommendation. FWS is working with DMR to
        determine if other CIAP expenses were inappropriately charged to other
        funding sources. Any errors discovered will be corrected in a timely
        manner.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    32. FWS establish and implement procedures to ensure that when employees
        charge time to more than one grant, payroll charges are adjusted to reflect
        the actual hours worked on those grants.

This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             54
        FWS Response
        FWS concurred with this recommendation. FWS is working with grantees
        to implement procedures to ensure that payroll charges reflect the actual
        hours worked under a grant.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    33. FWS enforce Federal regulations and DMR policy requiring employees to
        record the amount of time they worked on each project on their
        timesheets.

        FWS Response
        FWS concurred with this recommendation. FWS is working with DMR to
        enforce Federal regulations and DMR policy requiring employees to
        record the amount of time worked on each project on their timesheets.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    34. FWS resolve the unsupported indirect costs of $69,518 charged to grants
        F12AF70107, F12AF70110, and F12AF70222.

        FWS Response
        FWS concurred with this recommendation. FWS is working with the
        grantees as they provide the necessary documentation on the questioned
        costs. Any unsupported costs will be reflected on a revised Federal
        Financial Report.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    35. FWS require DMR to implement policies and procedures to ensure that it
        does not charge indirect costs to CIAP grants before entering into an
        indirect cost rate agreement with the appropriate Federal agency.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             55
        FWS Response
        FWS concurred with this recommendation. FWS is working with DMR to
        clarify DMR’s cognizant agency.

        OIG Analysis of FWS Response
        We consider this recommendation resolved but not implemented. We will
        refer the recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    36. FWS resolve the $43,882 in unreported program income.

        FWS Response
        FWS did not concur with this recommendation. FWS stated the income
        resulted from wastewater utility charges for ongoing monthly services to
        treat sewage and maintain treatment facilities. These charges were not
        directly generated by CIAP grant activity and should be characterized as
        governmental revenues, which fall under the exception for program
        income.

        OIG Analysis of FWS Response
        We consider this recommendation unresolved. The CIAP grant funded the
        installation of new sewer lines to 206 houses. The income we are
        questioning was generated from the service fees charged after installation
        of these sewer lines and are not considered governmental revenue, as those
        are defined as taxes, special assessment, levees, and fines. When resolved,
        we will refer this recommendation to the Assistant Secretary for Policy,
        Management and Budget to track its implementation.

    37. FWS provide additional guidance to State and county CIAP staff to ensure
        they understand the concept of program income and that they can identify,
        disburse, and report program income.

        FWS Response
        FWS concurred with this recommendation. FWS provided training to
        grantees in FY 2012 on properly reporting program income.

        OIG Analysis of FWS Response
        We consider this recommendation implemented and closed.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             56
Appendix 1: Scope and Methodology
Scope
We performed our audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Our audit focused on grant recipients’ compliance with the Coastal Impact
Assistance Program (CIAP) authorizing legislation, Federal regulations, U.S.
Department of the Interior (DOI) policies, and grant terms and conditions, and on
identifying grant management challenges that U.S. Fish and Wildlife Service
(FWS) should address as it undertakes the responsibility to manage CIAP from
the Bureau of Ocean Energy Management, Regulation and Enforcement
(BOEMRE). We conducted our audit fieldwork from January 2012 through
August 2012. We reviewed costs claimed by grantees under CIAP grants from
October 1, 2007, through December 31, 2011.

Methodology
To accomplish our objectives, we reviewed BOEMRE CIAP guidance, including
standard operating procedures; prior reports issued by our office and the U.S.
Government Accountability Office; and grant files and data provided by
BOEMRE and FWS.

We interviewed BOEMRE and FWS officials responsible for creating and
managing CIAP grants, including BOEMRE officials in Herndon, VA;
Anchorage, AK; and New Orleans, LA; and FWS officials in Arlington, VA. We
also interviewed current and former attorneys from DOI’s Office of the Solicitor,
appraisers from DOI’s Office of Valuation Services, and officials at the National
Oceanic and Atmospheric Administration.

We interviewed grant recipients and conducted site visits in Mississippi from
January 23 through February 3, 2012. Using grants within our sample, we
interviewed and visited grant recipients and subrecipients in Hancock, Harrison,
and Jackson Counties, as well as the Department of Marine Resources. These sites
and interviews included—

    •   Hancock County
        o CIAP coordinator;
        o tax assessor/collector;
        o county engineer – Compton Engineering;


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             57
        o sewer installation site – Pearlington, MS; and
        o Bay High School.
    •   Harrison County
        o county administrator;
        o CIAP coordinator; and
        o Swetman-Meeboer Parcel.
    •   Jackson County
        o CIAP administrator;
        o Pascagoula River Audubon Center;
        o West Jackson Utility District; and
        o tax assessor’s office (via email).
    •   Department of Marine Resources
        o CIAP administrator;
        o Department of Environmental Quality;
        o Personal Services Contract Review Board (by telephone);
        o Land Trust for the Mississippi Coastal Plain;
        o Ohr-O’Keefe Museum of Art;
        o Institute for Marine Mammal Studies;
        o Infinity Science Center;
        o Possum Walk Environmental and Historical Trail at Infinity Science
           Center;
        o Lynn Meadows Discovery Center, including adjacent lot being
           considered for purchase known as Former Captain Ed’s Vacation
           Rentals;
        o Harbor Landing Dry Boat Storage and Yacht Club;
        o City of Lucedale-McNeil Property;
        o Charnley-Norwood Cottage;
        o Front Beach Condominiums;
        o Joseph T. Jones Park;
        o Schooner Pier Complex; and
        o Pass Christian Seafood Festival.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             58
Appendix 2: Questioned Costs
                                                        Questioned Costs              Funds To
     Grant            Grant          Claimed                                         Be Put to
    Number           Amount           Costs                                          Better Use
                                                    Ineligible       Unsupported

 F12AF70001            $450,000        $293,748        $293,748                $0        $156,252

 F12AF70003              400,000        140,725            3,189                 0                0

 F12AF70004              250,000        197,013                  0         85,882                 0

 F12AF70005              154,000        143,541         143,541                  0            10,459

 F12AF70006              254,660        113,341         108,448                  0                0

 F12AF70013              500,000        226,039         226,039                  0           273,961

 F12AF70016              849,838        844,366         844,366                  0             5,472

 F12AF70018              350,000        252,438         252,438            10,939             97,562

 F12AF70022            1,200,000       1,009,350      1,009,350                  0           190,650

 F12AF70024              211,700        119,565         119,565                  0            92,135

 F12AF70028              500,000        483,650         483,650                  0            16,350

 F12AF70034              249,990          16,894         16,894                  0           233,096

 F12AF70039            3,044,000       3,042,231      3,042,231                  0             1,769

 F12AF70040            1,294,500       1,289,316      1,289,316                  0             5,184

 F12AF70043              400,000        190,914                  0         94,732                 0

 F12AF70107               60,000          42,867           1,508             1,869                0

 F12AF70109              274,500        138,543          91,330                  0                0

 F12AF70110            2,000,000       1,377,560        439,433            24,577                 0

 F12AF70112              377,757        160,034             400                  0                0

 F12AF70115            1,829,525        301,962         141,810                  0            43,232

 F12AF70118               18,910          13,558         13,558                  0             5,352

 F12AF70119               18,960           1,729           1,729                 0            17,231

 F12AF70128              100,000          12,836         12,836                  0            87,164

 F12AF70148              200,000          50,229         13,245              7,464                0

 F12AF70161              116,500          89,735         89,735                  0            26,765

 F12AF70166            1,145,000               0                 0               0      1,145,000


This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             59
                                                        Questioned Costs              Funds To
     Grant            Grant          Claimed                                         Be Put to
    Number           Amount           Costs                                          Better Use
                                                    Ineligible       Unsupported

 F12AF70181            2,940,000               0                 0               0      2,940,000

 F12AF70185            1,045,400       1,023,780      1,023,780                  0            21,620

 F12AF70206              540,180          15,056         15,056                  0           525,124

 F12AF70214               16,594          13,173        $13,173                  0             3,421

 F12AF70219              150,000               0                 0         27,529                  0

 F12AF70222            2,250,000        746,084         746,084                  0      1,503,916

 F12AF70224              896,100        891,033         891,033                  0             5,067

 F12AF70228               26,000           3,400           3,400                 0            22,600

 F12AF70232              245,000        231,659         231,659                  0            13,341

 F12AF70237            3,366,247       1,336,189      1,336,189                  0      2,030,058

 F12AF70260              993,816        111,991         111,991                  0           881,825

 F12AF70267              400,000        117,065         117,065                  0           282,935

 F12AF70270            3,725,300       3,695,253      3,695,253                  0            30,047

 F12AF70274              497,875          42,673        127,628                  0                650

 F12AF70281              552,000               0                 0               0           552,000

 F12AF70298              300,000               0                 0               0           300,000

 F12AF70302              474,365               0                 0               0           474,365

 F12AF70310*             448,710               0                 0               0                 0

 M09AF15332              276,000        207,200         207,200                  0            68,800

 M09AF15751              425,000        425,000         425,000                  0                 0

   Total           $35,818,427     $19,411,740     $17,582,870           $252,992    $12,063,403


*This grant is included because we questioned the use of a sole-source contract. Hancock
County had not yet sought reimbursement for any costs associated with the grant at the
time of our review.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             60
Appendix 3: Federal Land Appraisal
Standards and Best Practices Not Met
      Land Tract           A   B    C    D   E    F   G    H    I   J   K    L   M    Total
 Charnley-Norwood              X    X    X   X                  X   X        X         7
 Hanover Point                 X             X    X                               X    4
 Harbor Landing            X   X             X    X                                    4
 LMDC                          X    X                      X            X    X         5
 McNeil Property               X         X   X                      X                  4
 Moran                         X    X    X   X        X    X    X   X                  8
 Moss Point                    X    X    X            X             X                  5
 Old Fort Bayou                X    X    X            X             X                  5
 Pascagoula                X             X        X                 X                  4
 Pass Christian Beach
                               X    X    X   X        X                      X    X      7
 Front
 Point Park                    X         X   X        X                      X           5
 Potoman LLC                   X    X        X                  X   X        X           6
 Reynolds (Front Beach
                               X             X        X             X   X                5
 Dr.)
 Reynolds (Rod and
                               X    X    X            X         X   X                    6
 Reel Rd.)
 Swetman-Meeboer           X   X    X        X                  X   X        X           7
 Wolf River                    X    X    X   X                      X                    5

Legend:
A: Arms-length transaction not ensured due to potential conflict of interest
B: Large disparities between tax assessors’ and grantees’ appraisals
C: Questionable analysis of highest and best use of the subject property or comparable
   sales
D: Improper extraordinary assumptions
E: Inadequate investigation and consideration of sales history
F: Improper application or unjustified omission of the cost and/or income capitalization
   methods of appraisal
G: Unexplained zoning differences between the appraised property and comparable sales
H: Verification of comparable sales prior to the sale date
I: Improper use of sales to governments and nonprofits as comparables
J: Unsupported and inconsistent quantitative adjustments to comparable sales
K: Improper qualitative analysis of comparable sales
L: Use of stale appraised values and comparable sales without adequate justification
M: Reliance on the seller’s appraisal




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             61
Appendix 4: U.S. Fish and Wildlife
Service Response
The U.S. Fish and Wildlife Service response to our report follows on page 63.




This is a version of the report prepared for public release. Changes have been made to the
internal report consistent with 5 U.S.C. §§ 552 (b)(6) and (b)(7)(C) of the Freedom of
Information Act (FOIA).
                                                                                             62
                 United States Departinent of the Interior
                                FISH AND WILDLIFE SERVICE
                                       Washington , D.C. 20240

                                           APR 2 3 2013
In Reply Refer To
FWS/A WSR/CIAP/054319



Memorandum


To:            Deputy Inspector General

FrorrP.sputy   Director, U.S. Fish and Wildlife Service      <if~
Subject:       Draft Audit Report- Management ofthe Coastal Impact Assistance Program,
               State of Mississippi Report No. ER-IN-MOA-0013--2011

This is our response to your memorandum dated February 15, 2013, which transmitted the above
referenced draft audit report. We appreciate the thoroughness of the review and the
recommendations being made to improve administration of the Coastal Impact Assistance
Program (ClAP).

Enacted in 2005, this financial assistance grant program has been operational since 2007. It was
transferred to the U.S. Fish and Wildlife Service (Service) on October 1, 2011. Our goal for
ClAP administration is to administer an accountable, transparent, and productive conservation
grant partnership with the eligible States and Coastal Political Subdivisions to meet the
Congressional mandate. In April, 2011, as part of our transition planning prior to assuming the
responsibility for this program, the Service asked the Office oflnspector General (OIG) to audit
the program in order for us to assess any weaknesses that could affect our goal.

From the onset ofthe audit, the Service has endeavored to work cooperatively with the OIG
staff. In mid-September 2011, the OIG expressed serious concerns about the underlying
authorization to continue the program. On December 18, 2011, the Service, working through the
Department oftl;le Interior, Office of the Solicitor, determined that the existing authorization was
sufficient to continue ClAP operations. During this 3-month period, because of the seriousness
ofthe issue, all grant activities were on hold and as a result, the Bureau of Ocean Energy
Management, Regulation and Enforcement (BOEMRE) did not transfer hard copy grant files to
the Service until the end of December.

In January, the OIG alerted the Service that there were four projects that did not meet the ClAP
requirements for funding so further funding of those projects should be withheld. The Service
immediately notified the grantees that the funds and projects were on hold until a review of the
four projects could be completed. Approximately two months later, when all four projects were
found to meet one or more of the authorized uses for ClAP funds, the funds were released and
the projects were continued.


                                                                                                 63
The Service's detailed response to each of the 38 findings/recommendations in the Draft Audit is
attached. A summary table of those responses is also attached for reference. We concur with
the majority of the findings and will continue to work with the Mississippi grantees that are
affected to resolve the findings. There are also several findings with which we do not, or only
partially, concur. We request that these should be acknowledged in the final audit report.

We look forward to working closely with you and your staff on the upcoming audits in
Louisiana, Alabama, California, Alaska, and Texas. Together we can attain the goal of
improving ClAP accountability and transparency in the grant process while successfully
achieving the substantial public benefits and conservation goals outlined in the Energy Policy
Act of2005 and the individual ClAP State Plans. If you need more information on any of these
responses, please contact Hannibal Bolton, Assistant Director for Wildlife and Sport Fish
Program at 202-208-7337.




                                                                                             64
       OIG RECOMMENDATION                    AGENCY       SUMMARY OF FISH AND WILDLIFE SERVICE (SERVICE)                         PROPOSED RESOLUTION
                                            RESPONSE                                ACTION
     1. Design and implement                  Concur   Our monitoring policies and grantee guidelines have been revised and      We consider this issue
     monitoring procedures to ensure                   procedures implemented as outlined in our detailed response to the        implemented and closed.
     that grantees submit timely                       recommendations.
     financial and performance reports;
     2. Review financial and
     performance reports and resolve
     any identified issues with
     grantees; and,
     3. Conduct and document regular
     site visits to ensure compliance
     with grant objectives.
     4. Independently assess risk of         Do not    DOl transferred the authority for administering the ClAP grant            We consider this issue
     ClAP grant recipients and               concur    program to the Service. The Service uses existing DOl and Service         closed. No additional action
     determine how and when to                         policies as well as WSFR policies, guidelines and practices,              is anticipated.
     employ various monitoring tools,                  developed to administer the Wildlife Restoration, Sport Fish
     such as requiring additional                      Restoration, and State Wildlife Grants, to administer ClAP grants,
     reporting or adherence to the 10                  including annual reporting and waiving the 10% requirement for non-
     percent rule; and                                 construction projects. These policies, guidelines and practices are
                                                       sufficient to address the concerns of the finding regarding risk
                                                       assessment and monitoring.
     5. Report potential conflict of         Do not    The Service conducted an inquiry into the Office of the Inspector         We consider this issue
     interest situations regarding hiring    concur    General' s May 15, 2012, Notification of Potential Findings and           closed. No additional action
     ofthe State's ClAP liaison to                     Recommendations allegations that the Service engaged in improper          is anticipated.
     DOl' s Office of Ethics for                       personal practices, ethics violations and Privacy Act violations in the
     resolution.                                       selection and hiring process for five State liaison positions. The
                                                       Service' s Human Resources Officer determined that the allegations
                                                       are unfounded. The DOl Office of Ethics staff provided training to
                                                       ClAP State liaisons and Headquarters staff in March 2012.




65
                                                                            1
     6. DOl's Assistant Secretary for        Do not   The Service does not concur with the recommendation that DOI staff         We consider this issue
     Policy, Management and Budget           concur   resolve questioned costs. The Service conducted supplemental               closed. No additional action
     resolve the ineligible questioned                reviews of the identified projects and found that all met one or more      is anticipated.
     costs of$1,212,737 awarded by                    of the Congressionally authorized uses and were eligible for ClAP
     BOEMRE and address the                           funding. The Service will continue to re-evaluate grant projects as
     $4,650,463 in funds to be put to                 they are submitted to ensure that they meet the Congressional
     better use.                                      eligibility criteria and are as described in approved ClAP State Plans,
                                                      in addition to meeting federal grant administration standards.
     7. FWS review and revise ClAP           Concur   The Service has reviewed the BOEMRE guidance to states and ClAP            We consider this issue
     guidance to ensure compliance                    guidance is currently in compliance with the Energy Policy Act of          implemented and closed.
     with the Act;                                    2005. Therefore, the Service has substantially retained the guidance       Guidance has been issued
                                                      with the exception of revising the process to make substantial             relative to the changed
                                                      changes to approved projects in State ClAP Plans and more fully            process.
                                                      describe and justifY modifications to approved projects as well as
                                                      include public review.
     8. FWS review all open ClAP             Concur   The Service has revised its monitoring protocols and will conduct          We consider this issue
     grants and Mississippi's State                   regular site visits of ClAP-funded grant projects that are considered      implemented and closed. No
     plan and conduct regular site                    high-risk, as well as site reviews and other monitoring efforts directed   additional action is
     visits of high-risk grant projects to            at the substantial number of other ClAP projects.                          anticipated.
     ensure compliance with the ClAP
     requirement.
     9. Resolve the $8,870,378 in            Concur   The Service is working with the grantees to resolve the issue. The         The resolution is not fully
     ineligible questioned costs arising              Service is conducting supplemental reviews ofthe identified projects       implemented.
     from potential conflicts of interest             and will continue to evaluate grant projects as they are submitted to      Documentation provided by
     regarding DMR's and Harrison                     ensure that they meet the Congressional eligibility criteria and are as    DMR, Hancock and                 I

     and Hancock Counties'                            described in approved ClAP State Plans, in addition to meeting             Harrison Counties is being       I
                                                                                                                                                                  I
     administration of ClAP and                       federal grant administration standards. Four of the 23 grants have         reviewed. We expect to
     address the $7,15 8,342                          been reviewed and the costs found to be eligible - see                     have the issue fully resolved
     of funds to be put to better use;                Recommendation 6.                                                          and implemented by October
                                                                                                                                 1, 2013.
     10. Review the State's ClAP             Concur   The Service is working with grantees and subgrantees to resolve the        The resolution is not fully
                                                                                                                                                                  I
     grants to identifY and rectify                   issue and provide state and county staffs with a mechanism to report       implemented. We are
     potential conflicts of interest;                 waste, fraud and mismanagement to independent sources.                     reviewing materials
     such action could include                                                                                                   provided by grantees. We
     requiring grantee and subgrantee                                                                                            expect to have the issue fully
     staff to report memberships on                                                      --
                                                                                                                                 resolved and implemented




66
                                                                           2
     boards of directors of outside                                                                                        by October 1, 2013 .
     organizations, reviewing large
     contracts and other procurement
     transactions for propriety,
     comparing the names of
     individuals involved
     in grant projects with a list of
     DMR or county employees, and
     performing site visits and
     formally informing employees of
     ways to report fraud, waste, and
     mismanagement to independent
     authorities;
     11. Require DMR to provide            Concur   DMR has implemented the suggested internal control policies and        We consider this issue
     support that it is complying with              procedures listed on page 19 of the Draft Audit Report in accordance   implemented and closed. No
     and implementing Chapter 30,                   with the "Mississippi Agency Accounting Policies and Procedures        additional action is         I

     "Internal Control," from the                   Manual."                                                               anticipated.
     "Mississippi Agency Accounting
     Policies and Procedures Manual,"
     per the Code of Federal
     Regulations' requirement;
      12. Require DMR to establish
     safeguards to prohibit employees
     from using their positions for a
     purpose that constitutes or
     presents the appearance of
     personal or organizational conflict
     of interest, or personal gain, as
     required by the assurance
     statements for Federal financial
     assistance, and periodically
     review compliance with the
     safeguards;


     L___




67
                                                                        3
     13. Require the State to publicly      Do not    The Service administers land acquisition following federal               We consider this issue           I

     announce each land parcel              concur.   requirements including 49 CFR 24, 43 CFR 12.71 , and the draft           closed. No additional action     1




     considered for purchase with                     Service Lands Chapters as appropriate. We are working with the           is anticipated.
     ClAP funds, allow ample time for                 grantees to verify that all ClAP grant recipients follow the
     public comment, and                              appropriate federal and state land acquisition procedures.
     report the comments to FWS prior
     to issuance of the grant award;

     14. Monitor real property              Concur    The Service follows the disposal requirements in 43 CFR 12.71(c)         We consider this
     purchased with ClAP funds to                     which includes the requirement that the grantee request disposal         recommendation
     ensure that grantees and                         instructions from the federal agency. Monitoring protocols are in        implemented and closed.
     subgrantees do not                               place to ensure that the property continues to be used for the purpose
     inappropriately dispose of such                  for which it is acquired. Additionally, the grant recipient
     property, with particular attention              responsibilities for land acquisition, disposal and management in
     given to the Harbor Landing site                 perpetuity were addressed in training provided to grant recipients
     and to acquisitions involving a                  during FY2012.
     potential conflict of interest.
     15. Require DMR to account for         Concur    The Service is working with DMR to resolve the issue. The DMR is         The resolution is not fully
     all revenues and expenditures                    compiling the necessary materials for review.                            implemented. We expect to
     related to the Harbor Landing                                                                                             have the issue fully resolved
     boat storage facility beginning                                                                                           and implemented by October
     with the date DMR took                                                                                                    1, 2013.
     ownership ofthe property.
     16. Resolve the ineligible             Concur    The Service is working with grantees and subgrantees to resolve the      The resolution is not fully
     questioned costs of$12,639,045                   issue. We are conducting supplemental reviews of the appraisals and      implemented. We are
     resulting from land appraisals that              taking other necessary actions, such as contracting for specialized      reviewing materials
                                                                                                                                                                I
     do not meet Federal standards                    certified review appraiser expertise.                                    provided by grantee. We
     before allowing further                                                                                                   expect to have the issue fully
     drawdowns on land acquisition                                                                                             resolved and implemented
     grants and ensure funds totaling                                                                                          by March 31 , 2014.
     $1 ,3 86,73 7 are put to better use;

     17. Require grantee and                Concur    The Service has implemented this recommendation and provided             We consider
     subgrantees to provide evidence                  supplemental guidance to all grant recipients by letter dated June 18,   recommendation and
     that appraisers are competitively                2012. Service Manual Chapters are also being revised that address        implemented. No additional




68
                                                                           4
     selected, do not present conflicts            these issues and a copy of the final policies will be provided to all     action is anticipated.
                                                                                                                                                              I
     of interest, have demonstrated the            grant recipients when available. Additionally, the grant recipient
     ability to complete appraisals in             responsibilities for land acquisition, appraisals and other aspects of
     accordance with Federal                       property management were addressed in training provided to grant
     standards, and are approved by                recipients during 2012. A standard operating procedure has been
     FWS before ClAP recipients                    implemented that requires Grant Conditional Statements that address
     draw down funds;                              the federal land acquisition process be included in the award letter to
     18. Require ClAP grantees and                 ensure that the recipient is aware of the documents that must be
                                                                                                                                                              I
     subgrantees to obtain appraisal               federally reviewed and approved prior to the actual land purchase.
     reviews that comply with Federal              Appraisal and appraisal reviews for land acquisitions funded by ClAP                                       I
     appraisal standards and ensure                are reviewed for compliance with Uniform Appraisal Standards for                                           I

     that the reviewers are                        Federal Land Acquisition (' Yellow Book' standards) and approved
                                                                                                                                                              I
     competitively selected, do not                by the Service prior to the actual land purchase.
     present conflicts of interest, and
     have demonstrated the ability to
     perform appraisal reviews in
     accordance with Federal
     standards; and
     19. Review appraisals and
     appraisal reviews obtained by
     ClAP grantees on a regular basis
     to ensure compliance with Federal
     appraisal standards.
     20. Resolve the ineligible           Concur   We are working with grantees to resolve the questioned costs. The         The resolution is not fully
     questioned costs of $1,021 ,416               grantee has provided supplemental information. Pending the                implemented. We are
     from inadequately justified sole-             outcome of our review, we will instruct grantees and subgrantees to       reviewing materials
     source procurement awards                     credit back any questioned costs that we determine are not adequately     provided by grantees. We
     charged to F 12AF70006,                       supported by documentation to justifY sole-source procurement             expect to have the issue fully
     F12AF70028, Fl2AF70039,                       awards. For any unsupported questioned costs, we will require the         resolved and implemented
     Fl2AF70040, Fl2AF70110,                       grantees to submit revised Federal Financial Reports (SF-425s)            by October 1, 2013 .
     Fl2AF70115, F12AF70185,                       showing audit adjustments for review and approval by the Service.
     Fl2AF70206, Fl2AF70224,
     Fl2AF70232, Fl2AF70270,
     and Fl2AF70274.




69
                                                                        5
     21. Require that ClAP recipients     Concur   We are working with grantees to verify that all ClAP recipients are        The resolution is not fully
     provide evidence of compliance                aware of the need to follow federal guidelines as well as their internal   implemented. We are
     with Federal procurement                      controls and standards of operations. The grantees have provided           reviewing materials
     regulations, including                        supplemental information that is being reviewed. The Service has           provided by grantees. We
     requirements to follow                        also provided ongoing trainings through FY2012 to ClAP grantee and         expect to have the issue fully
     grantees' and subgrantees' own                subgrantee staff members to reiterate the importance of complying          resolved and implemented
     procurement standards; and                    with Federal regulations and of following recipients' own standards.       by October 1, 2013.
     22. Develop and implement a plan
     to verify that ClAP recipients are
     not splitting procurements into
     smaller purchases to avoid
     competition thresholds.
     23. Resolve the ineligible           Concur   We are working with grantees as they provide the necessary                 The resolution is not fully
     questioned costs of $23,967                   documentation on these questioned costs. The Service has provided          implemented. We are
     charged to grant F12AF70001 and               training in FY2012 to ClAP grantee and subgrantee staff members to         reviewing materials
     $2,229 charged to grant                       reiterate the importance of complying with Federal regulations and         provided by grantee. We
     Fl2AF70148;                                   grant administration requirements, including the allocation and            expect to have the issue fully
     24. Resolve the ineligible                    allowability of costs. For any unsupported questioned costs, we will       resolved and implemented
     questioned costs of $203 ,84 7                require the grantees to submit revised Federal Financial Reports (SF-      by October 1, 2013.
     charged to grant F12AF70237;                  425s) showing audit adjustments for review and approval by the
     and                                           Service.
                                                                                                                                                               I
     25. Instruct DMR and Il\1MS staff
     members involved in the
     procurement process to follow
     applicable Federal regulations and
     the terms and conditions of ClAP
     grant agreements, and provide
     documentation to demonstrate this
                                                                                                                                                               I
     compliance to FWS.
     26. Resolve the ineligible           Concur   We are working with grantees to provide the necessary                      The resolution is not fully
     questioned costs of$107,443                   documentation on these questioned costs and prorating the cost of          implemented. We are
     charged to grants                             equipment. The Service has provided training in FY2012 to ClAP             reviewing materials
     Fl2AF70003, F12AF70107,                       grantee and sub grantee staff members to reiterate the importance of       provided by grantee. We
     F12AF70109, F12AF70112, and                   complying with Federal regulations and grant administration                expect to have the issue fully
     F12AF70148; and                               requirements, including the allocation and allowability of costs. For      resolved and implemented




70
                                                                        6
          27. Require DMR to prorate the                  any unsupported questioned costs, we will require the grantees and   by October 1, 2013.
          cost of each piece of equipment                 subgrantees to submit revised Federal Financial Reports (SF-425s)
          among the projects benefitting                  showing audit adjustments for review and approval by the Service.
          from its use, and provide
          documentation to FWS
          evidencing proper use.

          28. Resolve the unsupported            Concur   We are working with grantees and subgrantees to provide the          The resolution is not fully
          questioned costs of$254,817, the                necessary documentation on these unsupported questioned costs. The   implemented. We are              I
          ineligible questioned costs of                  Service has provided training in FY2012 to ClAP grantee and          reviewing materials
          $3,955 in payroll costs;                        subgrantee staff members to reiterate the importance of complying    provided by grantee. We
          29. Resolve the $21,000 in land                 with Federal regulations and grant administration requirements,      expect to have the issue fully
          appraisals erroneously charged to               including the allocation and allowability of costs. For any          resolved and implemented
          other Federal funds;                            unsupported questioned costs, we will require the grantees and       by October 1, 2013.
          30. Require DMR to adjust                       subgrantees to submit revised Federal Financial Reports (SF-425s)
          accounting errors in a timely                   showing audit adjustments for review and approval by the Service.
          manner in accordance with the
          Mississippi Agency Accounting
          Policies and Procedures Manual;
          31. Require DMR to determine if
          other ClAP expenses have been
          inappropriately charged to other
          funding sources (or vice versa)
          and correct any errors;
          32. Establish and implement
          procedures to ensure that when
          employees charge time to more
          than one grant, payroll charges are
          adjusted to reflect the actual hours
          worked on those grants;
          33. Enforce Federal regulations
          and DMR policy requiring
          employees to record the amount
          of time they worked on each
          project on their
     L_   timesheets;




71
                                                                              7
     34. Resolve the unsupported
     indirect costs of $69,518 charged
     to grants F12AF70107,
     F12AF70110, and F12AF70222;
     35. Require DMR to implement
     policies and procedures to ensure
     that it does not charge indirect
     costs to ClAP grants before
     entering into an indirect cost rate
     agreement with the appropriate
     Federal agency;
     36. Resolve the unsupported
     questioned costs of$203,847
     charged to grant F12AF70237;

     37. Resolve the $43,882 in            Do not   The questioned income resulted from wastewater utility charges for    We consider this issue
     unreported program income;            concur   ongoing monthly services to treat sewage and maintain treatment       closed. No additional action
                                                    facilities and were are not directly generated by the ClAP grant      is anticipated.
                                                    activities and would not constitute program income as defined in 43
                                                    CFR 12.65(b), but rather are characterized as "governmental
                                                    revenues" which falls under the exception for Program Income, as
                                                    defined in 43 CPR 12.65(d).                                                                          I

     38. Provide additional guidance to    Concur   We agree that program income was not adequately addressed or          We consider this issue         I

     State and county ClAP staff to                 included in BOEMRE grantee information. The Service has provided      implemented and closed.
     ensure they understand the                     training in FY2012 to ClAP grantee and subgrantee staff members to
     concept of program income and                  reiterate the importance of complying with Federal regulations and
     that they can identifY, disburse,              grant administration requirements, including reporting program                                       '
     and report program income.                     mcome.                                                                                               !




72
                                                                       8
Appendix 5: Status of
Recommendations
In response to our draft report, FWS concurred or partially concurred with 32 of
our 37 recommendations and was working to implement or close them. The
response included target dates and an action official for each recommendation
(see Appendix 4). We consider 7 recommendations unresolved, 17 resolved but
not implemented and 13 closed.

  Recommendations                   Status                 Action Required
                                                               Please provide
   4, 5, 6, 7, 13, 16, 36         Unresolved              clarification within 30
                                                                    days
                                                          The recommendations
                                                          will be referred to the
   9, 10, 15, 20, 21, 22,
                               Resolved but not            Assistant Secretary,
  23, 24, 26, 27, 28, 30,
                                implemented              Policy, Management and
     31, 32, 33, 34, 35
                                                          Budget for tracking of
                                                             implementation.

  1, 2, 3, 8, 11, 12, 14,                                   No further action
                                     Closed
  17, 18, 19, 25, 29, 37                                        required.




                                                                                73
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
